<html>
<title> - STIMULUS STATUS: TWO YEARS AND COUNTING</title>
<body><pre>[House Hearing, 112 Congress]
[From the U.S. Government Publishing Office]



 
                            STIMULUS STATUS:
                         TWO YEARS AND COUNTING

=======================================================================


                                (112-28)


                                HEARING

                               BEFORE THE

                              COMMITTEE ON

                   TRANSPORTATION AND INFRASTRUCTURE

                        HOUSE OF REPRESENTATIVES

                      ONE HUNDRED TWELFTH CONGRESS

                             FIRST SESSION

                               __________

                              MAY 4, 2011

                               __________

                       Printed for the use of the
             Committee on Transportation and Infrastructure


         Available online at: http://www.gpo.gov/fdsys/browse/
        committee.action?chamber=house&committee=transportation




                  U.S. GOVERNMENT PRINTING OFFICE
66-184                    WASHINGTON : 2011
-----------------------------------------------------------------------
For sale by the Superintendent of Documents, U.S. Government Printing 
Office Internet: bookstore.gpo.gov Phone: toll free (866) 512-1800; DC 
area (202) 512-1800 Fax: (202) 512-2104  Mail: Stop IDCC, Washington, DC 
20402-0001



             COMMITTEE ON TRANSPORTATION AND INFRASTRUCTURE

                    JOHN L. MICA, Florida, Chairman

DON YOUNG, Alaska                    NICK J. RAHALL II, West Virginia
THOMAS E. PETRI, Wisconsin           PETER A. DeFAZIO, Oregon
HOWARD COBLE, North Carolina         JERRY F. COSTELLO, Illinois
JOHN J. DUNCAN, Jr., Tennessee       ELEANOR HOLMES NORTON, District of 
FRANK A. LoBIONDO, New Jersey        Columbia
GARY G. MILLER, California           JERROLD NADLER, New York
TIMOTHY V. JOHNSON, Illinois         CORRINE BROWN, Florida
SAM GRAVES, Missouri                 BOB FILNER, California
BILL SHUSTER, Pennsylvania           EDDIE BERNICE JOHNSON, Texas
SHELLEY MOORE CAPITO, West Virginia  ELIJAH E. CUMMINGS, Maryland
JEAN SCHMIDT, Ohio                   LEONARD L. BOSWELL, Iowa
CANDICE S. MILLER, Michigan          TIM HOLDEN, Pennsylvania
DUNCAN HUNTER, California            RICK LARSEN, Washington
ANDY HARRIS, Maryland                MICHAEL E. CAPUANO, Massachusetts
ERIC A. ``RICK'' CRAWFORD, Arkansas  TIMOTHY H. BISHOP, New York
JAIME HERRERA BEUTLER, Washington    MICHAEL H. MICHAUD, Maine
FRANK C. GUINTA, New Hampshire       RUSS CARNAHAN, Missouri
RANDY HULTGREN, Illinois             GRACE F. NAPOLITANO, California
LOU BARLETTA, Pennsylvania           DANIEL LIPINSKI, Illinois
CHIP CRAVAACK, Minnesota             MAZIE K. HIRONO, Hawaii
BLAKE FARENTHOLD, Texas              JASON ALTMIRE, Pennsylvania
LARRY BUCSHON, Indiana               TIMOTHY J. WALZ, Minnesota
BILLY LONG, Missouri                 HEATH SHULER, North Carolina
BOB GIBBS, Ohio                      STEVE COHEN, Tennessee
PATRICK MEEHAN, Pennsylvania         LAURA RICHARDSON, California
RICHARD L. HANNA, New York           ALBIO SIRES, New Jersey
STEPHEN LEE FINCHER, Tennessee       DONNA F. EDWARDS, Maryland
JEFFREY M. LANDRY, Louisiana
STEVE SOUTHERLAND II, Florida
JEFF DENHAM, California
JAMES LANKFORD, Oklahoma
VACANCY

                                  (ii)

                                CONTENTS

                                                                   Page

Summary of Subject Matter........................................    iv

                               TESTIMONY

Elkins, Arthur A., Jr., Inspector General, Environmental 
  Protection Agency..............................................     9
Herr, Phillip R., Director, Physical Infrastructure, Government 
  Accountability Office..........................................     9
Kienitz, Roy, Under Secretary for Policy, Department of 
  Transportation.................................................     9
Scovel, Calvin L., III, Inspector General, Department of 
  Transportation.................................................     9
Trimble, David C., Acting Director, Natural Resources and 
  Environment, Government Accountability Office..................     9

          PREPARED STATEMENTS SUBMITTED BY MEMBERS OF CONGRESS

Brown, Hon. Corrine, of Florida..................................    43
Hirono, Hon. Mazie K., of Hawaii.................................    47

               PREPARED STATEMENTS SUBMITTED BY WITNESSES

Elkins, Arthur A., Jr............................................    49
Herr, Phillip R..................................................    64
Kienitz, Roy.....................................................    86
Scovel, Calvin L., III...........................................   106
Trimble, David C.................................................   128

                       SUBMISSIONS FOR THE RECORD

Responses to questions:

  Elkins, Arthur A., Jr., Inspector General, Environmental 
    Protection Agency............................................    58
  Herr, Phillip R., Director, Physical Infrastructure, Government 
    Accountability Office, and Trimble, David C., Acting 
    Director, Natural Resources and Environment, Government 
    Accountability Office........................................   150
  Kienitz, Roy, Under Secretary for Policy, Department of 
    Transportation...............................................    94
  Scovel, Calvin L., III, Inspector General, Department of 
    Transportation...............................................   120


[GRAPHIC] [TIFF OMITTED] 66154.001

[GRAPHIC] [TIFF OMITTED] 66154.002

[GRAPHIC] [TIFF OMITTED] 66154.003

[GRAPHIC] [TIFF OMITTED] 66154.004

[GRAPHIC] [TIFF OMITTED] 66154.005

[GRAPHIC] [TIFF OMITTED] 66154.006

[GRAPHIC] [TIFF OMITTED] 66154.007

[GRAPHIC] [TIFF OMITTED] 66154.008

[GRAPHIC] [TIFF OMITTED] 66154.009

[GRAPHIC] [TIFF OMITTED] 66154.010

[GRAPHIC] [TIFF OMITTED] 66154.011

[GRAPHIC] [TIFF OMITTED] 66154.012

[GRAPHIC] [TIFF OMITTED] 66154.013

[GRAPHIC] [TIFF OMITTED] 66154.014

[GRAPHIC] [TIFF OMITTED] 66154.015

[GRAPHIC] [TIFF OMITTED] 66154.016

[GRAPHIC] [TIFF OMITTED] 66154.017

[GRAPHIC] [TIFF OMITTED] 66154.018

[GRAPHIC] [TIFF OMITTED] 66154.019



                            STIMULUS STATUS:

                         TWO YEARS AND COUNTING

                              ----------                              


                         WEDNESDAY, MAY 4, 2011

                  House of Representatives,
    Committee on Transportation and Infrastructure,
                                            Washington, DC.
    The committee met, pursuant to notice, at 10:04 a.m., in 
Room 2167, Rayburn House Office Building, Hon. John L. Mica 
(Chairman of the committee) presiding.
    Mr. Mica. Good morning. I would like to call this hearing 
of the House Transportation and Infrastructure Committee to 
order.
    The purpose of today's hearing is to review the status of 
stimulus legislation. The title is, ``Stimulus Status: Two 
Years and Counting.'' And today we will have an opportunity to 
hear from some of the officials who have performed an audit, 
have reviewed the work performed under the stimulus program. 
And we have had the General Accounting Office, the Department 
of Transportation, the inspector general of DOT, IG, the 
Environmental Protection--inspector of EPA, and others who have 
looked at the implementation of the American Recovery and 
Investment Act. And we will hear from them as our witnesses 
today.
    This hearing is a continuation of a series that began under 
the leadership of our former chair, and we have attempted to be 
diligent in our oversight responsibilities to review the 
progress of that legislation and efforts to improve the economy 
and create jobs in a very difficult time in our economy.
    The order of business this morning is we will start with--I 
will give an opening statement, then I will recognize our 
Ranking Member, Mr. Rahall. We will turn to other Members and 
allow them the opportunity for comments this morning, and then 
we will turn to our witnesses. And I appreciate, again, their 
participation and contribution to this important review.
    Well, let me say that I probably couldn't be more 
frustrated over anything than the situation we find ourselves 
in right now with the economy of the United States. There are 
still millions of people unemployed. The unemployment level is 
at record levels. We are 2 years now into the economic 
downturn, and we are a little over 2 years into having in place 
the American Recovery Act, known as the Stimulus Bill. And 
again, I just could not be more frustrated by the results that 
I see.
    To put this in perspective, I spoke to a group just an hour 
or so ago, and we were talking about stimulus. And I reminded 
them that the total stimulus package was $787 billion. And I 
think that has been even re-evaluated to up over $800 billion. 
The current debt that we find ourselves in in just the last 24 
to 30 months is some $5.3 trillion. And still we have a 
stagnating economy. We have seen mediocre results from 
government attempts to improve the economy. And unfortunately, 
the stimulus has not been that effective, particularly in the 
small realm in which we were provided funds and authorization.
    Again, to put this into perspective, $787 billion in 
stimulus money--Mr. Oberstar and I were asked to come back in 
December before we drafted--in the January timeframe--stimulus 
legislation, and put together a package for infrastructure. At 
that time we were told the total stimulus package would be some 
$250 billion to $300 billion. That would be for the entire 
stimulus package that Congress was to consider. We worked under 
the assumption that 50 percent of that $250 billion to $300 
billion total package--50 percent--would be infrastructure.
    What happened is now history. And you know that only $63 
billion ended up in the account that we are responsible for, 
infrastructure--not even all of it--in our realm of 
responsibility. About $48 billion of the $63 billion went to 
the Department of Transportation. And we have monitored the 
progress, periodically, of those funds.
    What an incredible disaster, to spend $787 billion, have 
$63 billion for infrastructure, of which today we will hear 
reports that still a good deal of that money is still not out. 
Much of it is in the Treasury. Many of the jobs that were 
created were very temporary jobs, and very few people had long-
term employment as a result of that effort. I can't think of 
anything that is more frustrating.
    When you stop and think of the enormity of the dollars that 
were spent, $787 billion, I just saw an account to rebuild the 
entire northeast corridor that was hit by unprecedented tsunami 
and natural disaster in Japan. The entire amount to rebuild 
that is $230 billion. Put this in perspective.
    So, we spent the money to underwrite unemployment. We spent 
the money to underwrite some States. We spent the money on a 
whole array of social programs, and we spent very little money 
on infrastructure--which actually, for every billion dollars, 
we are told, in appropriate infrastructure spending you get 
25,000 to 35,000 jobs. $787 billion. And then we get back down 
to our $63 billion, and how little of that actually got out in 
a hurry.
    So, I cannot tell you how frustrated I am, and particularly 
in the construction area. We are running 20 percent, 
nationally, in unemployment and construction. And almost every 
one of these jobs, if the money had been properly expended, and 
an appropriate amount for infrastructure, would be putting 
people to work in the most hard-hit area.
    This will go down in history as one of the greatest 
failures of a government program to stimulate the economy that 
mankind has ever created. So I cannot tell you how frustrated I 
am. I know Mr. Oberstar was frustrated when we got whacked to 
$63 billion. It was a very sad day for the American people.
    Lesson learned, in closing. Even if you have the money, you 
have got to make certain that you have an expedited means of 
getting that money out. And it is my hope in the successor to 
TEA-LU that we can expedite the process. I stood on the floor 
of the House of Representatives and begged them to double the 
money for infrastructure, and then condense the amount of time 
to get the projects out. I think I had 23 or 24 votes from the 
Democrat side of the aisle, but we failed then. We cannot fail 
again.
    This is a very expensive--almost $1 trillion--lesson that 
we should learn from the failure of what has taken place here.
    Now, I know there are many temporary jobs. So we had two 
failures. We had, first, the Stimulus Bill for infrastructure 
and we couldn't get the money out in a timely fashion; and 
secondly, not passing a long-term transportation bill. I know 
Mr. Rahall, the Ranking Member, and both sides of the aisle are 
committed to a 6-year bill. If we had done a 6-year bill, fully 
funded at the level Mr. Oberstar and I had committed to, we 
would have millions and millions of people working. If we had 
stimulus money to properly direct it and then expedite it to 
get out for good infrastructure projects, we would have 
millions more working. We wouldn't find ourselves in the 
situation that we are in today.
    So, I cannot be more disappointed. You stop and think about 
this. I go back to the district--I know you have, too--and you 
cannot help but meet people who have lost their homes, their 
jobs, their savings. And I think so much of that could have 
been avoided if Congress had done the right thing.
    But again, historically, people will look back on the 
incredible amount of money that was spent, thinking that much 
of this was supposed to be directed towards infrastructure, and 
it was only a very minuscule amount. And now we see the results 
of that.
    And then, finally, I do want to look at some of the 
specific transportation money on rail, and how that was 
expended, and the failure we had in that area, because I am a 
strong advocate of mass and fixed transportation and high-speed 
rail, and we had a very dismal start to that program, which is 
also a substantial part of that stimulus transportation 
dollars, even though they were small dollars. That did not move 
forward in a successful manner, and has set us back in that 
regard.
    So, not here to pick on anybody today. We want to get an 
honest assessment. But I couldn't be more frustrated in not 
having a better success, both in the amount of money, getting 
the money out, and better infrastructure projects to build this 
country's crumbling infrastructure.
    So, with that opening statement, pleased to yield to the 
very capable, honorable, distinguished gentleman who had--what 
did you have, the Vice President in your district Monday?
    Mr. Rahall. Just the Secretary of Transportation.
    Mr. Mica. Oh, Secretary of Transportation.
    Mr. Rahall. Yes.
    Mr. Mica. That's right.
    Mr. Rahall. More important.
    Mr. Mica. That's right, more important.
    [Laughter.]
    Mr. Mica. And we had a great discussion with the Secretary 
of Transportation--and hosted very generously by the 
President--on Monday night, a very productive session with some 
of the Senate leadership and----
    Mr. Rahall. Bipartisan.
    Mr. Mica. Mr. Rahall continues to do an outstanding job in 
trying to move us forward in a positive direction on 
infrastructure. So, pleased to yield to him.
    Mr. Rahall. Thank you very much, Mr. Chairman. I appreciate 
those kind words. And, believe you me, it is mutual. And I 
salute your leadership of this committee, as well.
    Listening to your opening statement, there is a lot of 
which I totally agree with you. There are other points that I 
disagree that will come out during today's hearing, I am sure. 
But I know that this is a very important hearing to discuss the 
millions of American jobs that have either been created or 
saved--or saved--as a result of the Recovery Act.
    This hearing is billed as an opportunity to examine 
oversight lapses of the Recovery Act. And I certainly want to 
remind my good friends on the other side of the aisle, 
especially those 19 new members of this committee, that this is 
not the first such oversight hearing, that we did have about 
18--no, 19--oversight hearings in the last Congress by this 
committee on the Recovery Act alone. So we have been very 
studious in our responsibilities to conduct oversight, and you 
are continuing that today, Mr. Chairman, and I salute you for 
it.
    Mr. Mica. I won't do 18, though.
    Mr. Rahall. Oh, you won't do 18? Oh, Chairman Oberstar 
would hate to hear that.
    On the other hand, probably the other things that we have 
spent more time on this Congress--not this committee, and I 
stress, and not this chairman, I stress--but the other things, 
as a body, that we spent more time on in this Congress is 
whether or not we are going to end Medicare as we know it, 
whether we are going to continue the ill-conceived witch hunt 
for President Obama's birth certificate, or whether we are 
going to talk about the need for creating jobs while bringing a 
budget to the floor that destroys hundreds of thousands of 
transportation jobs in America, jobs lost in every single State 
of the Union.
    So, I am proud of this committee, of its chairman, and of 
the oversight work that we have conducted. And I commend the 
chairman for his extensive Recovery Act oversight work, 
initiated, as I have said, in the previous Congress under our 
distinguished Chairman, Mr. Oberstar. And we will have to go 
quite a bit to keep pace with him, but I understand you won't 
do that.
    Whether measured by the millions of American jobs created 
or saved, the half-billion dollars in unemployment benefits 
that have been avoided, or the tremendous progress that has 
been made to repair and rebuild our crumbling infrastructure, 
the transportation and infrastructure investments provided by 
the Recovery Act have been a success. It has helped stem the 
tide of job losses from the worst economic crisis facing our 
Nation since the Great Depression. These are investments in 
America's future. They are creating economic opportunities for 
us today.
    The Recovery Act did provide some $64 billion for 
transportation and infrastructure needs coming within this 
committee's jurisdiction. Federal agencies, States, and their 
local partners have obligated $60.7 billion for 19,784 
transportation and other infrastructure projects, representing 
about 95 percent of the funds available.
    Across the Nation, work has begun on nearly all of these 
projects, producing badly needed family-wage jobs today. Direct 
job creation from these projects has resulted in paychecks for 
thousands of Americans, which in turn prevents the need for 
those Americans to collect unemployment checks and instead 
allows them to pay taxes.
    For example, direct job creation from highway projects 
alone has resulted in payroll expenditures of $2.8 billion. And 
using this data we can calculate that $543 million in 
unemployment checks have been avoided as a result of this 
direct job creation. And, furthermore, these direct jobs have 
caused nearly $571 million to be paid in Federal taxes.
    Is the unemployment rate still too high? Absolutely. Do we 
have more work to do to create more American jobs? Absolutely. 
But would we be worse off today without the Recovery Act? 
Absolutely.
    I will close by thanking today's witnesses. I look forward 
to hearing their testimony and learning more about how we can 
build upon the success of the Recovery Act and continue to put 
our Americans back to work. We must grow past ideological 
differences and work together to keep America's economy on the 
road to recovery. The price of not investing in America's 
future is simply too high.
    I thank you, Mr. Chairman.
    Mr. Mica. I thank you. Other Members seek recognition? Ms. 
Norton?
    Ms. Norton. Mr. Chairman, I want to thank you for 
continuing these hearings. I don't know, you might even agree 
that we ought to, in memory of a man who spent so much of his 
life here, call these--dedicate these hearings to Jim Oberstar. 
But you were his good partner for many years, and it is very 
important that we continue to do the kind of oversight you are 
doing today.
    I do want to say that everyone shares your frustration with 
the fact that the stimulus package didn't cure all of the 
recession. I am not sure many of us thought it would. The 
majority, of course, took power here in the House on the theme 
of jobs. So I just want to remind us that whatever the Stimulus 
Bill did or did not do, cutting Federal programs that mostly go 
to the States does not stimulate jobs. And I do believe that it 
has something to do, to say the very least, with why States are 
in the midst of collapsing now.
    I agree with the chairman that we wanted more of the money 
to go to infrastructure. We were competing with our own States. 
And I am not sure there is a single Member of this committee or 
of the Congress who would have cut off his own State from some 
of the funds that came there. And what we see now is the 
collapse of the States.
    The chairman said that many of these jobs were temporary. I 
believe the record should be corrected in that regard, because, 
according to the CBO, which is the only objective source we 
have, the Recovery Act increased the number of Americans 
employed by between 1.3 million and 3.5 million, compared with 
what would have occurred, had Congress--and increased the 
number of full-time equivalent jobs by 1.8 million to 5 
million, compared with what would have occurred had Congress 
not passed the Recovery Act. So, whatever you think of the 
Recovery Act, there is no case to be made that we would have 
been better off without out.
    Finally, I would like to say that I think that the 
chairman's announcement before we left, that he intends to 
bring a surface transportation bill to the floor, is the best 
hope for new infrastructure money, and it does provide an 
opportunity for both sides to work together as we have always 
done so amicably in this committee.
    Thank you very much, Mr. Chairman.
    Mr. Mica. Thank you. Other Members that seek recognition? 
Ms. Brown?
    Ms. Brown. Yes, Mr. Mica. And Ranking Member, thank you.
    You know what? I am going to be very brief, I am going to 
put my statement in the record. But I just want to be clear 
that you can put lipstick on a pig, it is still a pig. And the 
fact is in December we spent $700 billion in tax cuts for the 
millionaires and billionaires. So, I have a problem--and to me 
it was reverse Robin Hood, robbing from the poor and working 
people to give tax breaks to the rich.
    So, I wanted 100 percent of the tax cuts to go into 
infrastructure and transportation. But you know we live in a 
climate that you have to get 218 votes in the House and 60 
votes in the Senate, and that was the problem in trying to make 
sure that we got as much as we can into transportation. And we 
know for every billion dollars we spend it generates 44,000 
permanent jobs.
    And to say that they are temporary jobs, let me tell you 
something. People who cannot pay their foreclosure, cannot pay 
their mortgage, they would welcome temporary jobs or any other 
kind of jobs. And in Florida we could have gotten close to $3 
billion for high-speed rail, and that would have generated over 
60,000 jobs. All of them would not have been permanent jobs, 
but they were good-paying jobs.
    And you mentioned earlier about the Federal Railroad 
Administration, and how they issued the dollars. Let's be clear 
that no State received a dime that they did not request, and 
the FRA set up a committee that reviewed all of the 
applications. And I was very grateful--and you also--that 
Florida received such a large percentage of it. But clearly 
there is a great interest in rail. I understand that we 
received over 90 applications for a total of $10 billion from 
24 States and Amtrak for the money that Florida has turned 
back.
    So, you know, we have some differences of opinions on how 
we should spend taxpayers' dollars to generate the economy. We, 
of course, are in a tank, and we need to do all we can. And we 
both agree that infrastructure investment is the best way to go 
about it. So, I am looking forward to the future dialogue, as 
we move forward.
    Mr. Mica. I thank the gentlelady. As an addendum to my 
opening statement, I just--I should have said this, but I feel 
too that the thing that has actually motivated any slight 
increase in economic activity is some definition of tax policy 
which the Congress did do, and which is now taking effect and 
has given some stability and ability for people who have the 
funds to employ to move forward on some sort of defined----
    Ms. Brown. Mr. Chairman?
    Mr. Mica. Yes, just quickly.
    Ms. Brown. Mr. Chairman?
    Mr. Mica. Yes.
    Ms. Brown. And that is where we disagree.
    Mr. Mica. Yes, ma'am. Yes, ma'am. OK, thank you. Ms. 
Richardson, you are recognized.
    Ms. Richardson. Thank you, Mr. Chairman and Ranking Member 
Rahall, and our witnesses who are here to testify with us 
today.
    As I watched the rollout of the stimulus program, I was 
encouraged when I would watch the Sunday morning programs. And 
often times, when people would reference how the stimulus 
dollars were used, they would very often times refer to the 
transportation section. So, although we would have all liked to 
have seen it been done better--and maybe never having had to 
have done it at all--I would say, though, of everything that 
was done, I think this was the most successful part of the 
program.
    In particular, though, I would like to point out a couple 
things. During this recession, the construction section in 
particular was hard hit, with nearly losing 2 million jobs. 
Unemployment rates in this sector were higher than in any other 
sector, even with all the funds we have subsequently invested. 
The unemployment rate in this sector still remains at 20 
percent. And so, what I would urge is not only as we continue 
to fund the projects and get the projects completed, but we 
work together on this committee to figure out how to get more 
funds there, so we can continue this progress.
    The transportation sector has been particularly effective 
in getting money out of the door, and getting people back to 
work. Federal agencies, State and local partners, have 
obligated $60.7 billion for nearly 20,000 projects. That is 
amazing. Representing 95 percent of the total transportation 
funds. Almost 20 percent of these funds have gone to projects 
that have already been completed.
    I can submit for the record that in every single city that 
I represent, we currently have a project. In Compton, at 205 
South Willow Brook, also in Signal Hill, at 2175 Cherry Avenue, 
at 1963 East Anaheim in Long Beach, and 701 East Carson Street 
in Carson.
    So, when we consider the success of this program, certainly 
we would like to do better. But I can tell you for the people 
in my district who are finally seeing projects come to 
fruition, this has been a benefit.
    I would like to stress the importance, though, as we move 
forward, for the witnesses here, the importance of unbundling 
contracts, and to expand the reach of our funds beyond the 
standard companies that traditionally receive the funds. I 
remember when we took those tough votes. And one of the reasons 
why we took it was for the people who were currently not 
working, that they were going to have an opportunity. And, 
unfortunately, I think we did fall short in that area. 
Companies, businesses that were already in the queue, already 
working with State and local governments, they were able to 
save their jobs. But what new jobs did we create? I think that 
debate is still open.
    I would also urge that we would continue, as we move 
forward, to use project or labor agreements that would 
facilitate local hiring and fair wage practices.
    Finally, I want to talk a little bit about the information, 
the data that we have. And I want to join with Mr. Rahall that 
in the subsequent hearings that we had over the last 2 years, 
my only issue with this document is that it does not 
differentiate--and it is my understanding when the rules were 
sent out for the money it did not differentiate--between save 
jobs and new jobs. And I think, for that, we are unable to 
communicate to the American public how well we really did 
fulfill the objective. And that is a very critical point for 
me.
    But I thank all the witnesses for being here. I thank you 
for your work. And we look forward to your testimony. I yield 
back.
    Mr. Mica. Thank you. Pleased to recognize the gentleman 
from New Jersey, Mr. Sires.
    Mr. Sires. Thank you, Mr. Chairman, and thank you for being 
here today, and thank you for having this meeting.
    I certainly agree with you that we needed a lot more money 
for infrastructure. I would like to have seen a greater amount, 
because I certainly see in my district--I come from a district 
that has a very old infrastructure--I see what this money has 
done in some of this, whether it was paving a road, whether it 
was building a bridge.
    But when you look at the situation the way it was, we were 
losing millions of jobs a month. The financial sector was ready 
to crumble. Everything around us was crumbling. So we moved on 
a stimulus. And I agree with my colleague, Laura Richardson. 
The most successful part of this stimulus has been the 
infrastructure money. And, unfortunately, we just didn't put 
enough money in there.
    So, we have created a ton of jobs at a time where we were 
losing millions of jobs a month. And I wish that we are able to 
do the same thing in the upcoming ratification of the 
transportation bill. Hopefully we can put a lot of money--put 
people to work.
    So, I thank the chairman for holding this meeting, and I 
yield back.
    Mr. Mica. Thank you. Any other Members seek recognition? 
Yes, Ms. Hirono?
    Ms. Hirono. Thank you, Mr. Chairman and Ranking Member 
Rahall and our witnesses today.
    There is no question that the Stimulus Act has been good 
for Hawaii. The members of this committee in particular know 
the importance of infrastructure spending. It's job creation, 
long-term benefits. And the chairman's leadership and Ranking 
Member Rahall's leadership, as we move forward with the surface 
transportation bill, will be very critical. And I thank them 
for that leadership.
    I just want to focus a little bit on Hawaii, and what the 
Stimulus Act did for Hawaii. The Council of Economic Advisors 
said that 13,000 jobs were retained or created in Hawaii, and 
over $125 million went to highway infrastructure funding, and 
some $40 million has been obligated, $70 million went directly 
to paychecks for Hawaii workers and their families.
    And in Hawaii they created a very transparent way of 
tracking this money, the recovery money. They created a 
recovery website. There is an office of economic reinvestment 
and recovery. And they established a legislative oversight 
committee. And, of course, the work o this committee, the 
Transportation and Infrastructure Committee, is a model of 
congressional oversight over the Recovery Act funding.
    I also want to mention that the State of Hawaii received 
$24.5 million in TIGER transportation investment, generating 
economic recovery money. And this went to the rehabilitation 
and construction of Pier 29 in Honolulu Harbor, which is the 
15th busiest port in the country. So when Secretary LaHood was 
visiting Hawaii a little while ago, he was particularly 
interested in seeing Recovery Act projects, and he--we took him 
to see the pier, and what was happening there.
    So, once again, it is of critical importance that we 
continue to support infrastructure investment. All of us on 
this committee know that.
    Thank you, Mr. Chairman.
    Mr. Mica. Thank you. And thank all the Members who have 
provided opening statements. And there being no further opening 
statements, let us turn now to our witnesses. And we have a 
number of witnesses. I will introduce them briefly: Calvin 
Scovel, inspector general of the Department of Transportation; 
Arthur Elkins, inspector general of EPA; Phillip Herr and David 
Trimble, who is accompanied by Susan Flemming of the General 
Accounting Office; and Roy Kienitz, who is with the Department 
of Transportation as under secretary for policy.
    So, we welcome our witnesses. And, as is normal, we--if you 
have a lengthy statement, it can be submitted to the record. 
And we hope you can summarize in approximately 5 minutes.
    We will go through all the witnesses, and then we will turn 
to questions. So let me first welcome the inspector general 
back, Calvin Scovel, with the Department of Transportation. 
Welcome, sir, and you are recognized.

     TESTIMONY OF CALVIN L. SCOVEL III, INSPECTOR GENERAL, 
DEPARTMENT OF TRANSPORTATION; ARTHUR A. ELKINS, JR., INSPECTOR 
  GENERAL, ENVIRONMENTAL PROTECTION AGENCY; PHILLIP R. HERR, 
 DIRECTOR, PHYSICAL INFRASTRUCTURE, GOVERNMENT ACCOUNTABILITY 
 OFFICE; DAVID C. TRIMBLE, ACTING DIRECTOR, NATURAL RESOURCES 
AND ENVIRONMENT, GOVERNMENT ACCOUNTABILITY OFFICE; ROY KIENITZ, 
    UNDER SECRETARY FOR POLICY, DEPARTMENT OF TRANSPORTATION

    Mr. Scovel. Chairman Mica, Ranking Member Rahall, members 
of the committee, thank you for inviting me here today to 
discuss DOT's ARRA spending.
    As you know, ARRA designated $48 billion for new and 
existing DOT programs to create and save jobs, invest in long-
term growth, and improve the Nation's Transportation system. 
DOT has been working hard to administer the large infusion of 
funds and comply with ARRA requirements. However, more 
difficult work lies ahead, as a significant portion of ARRA 
funds remains to be spent.
    Our completed and ongoing ARRA audits point to challenges 
DOT must address as it moves forward, ensuring transparency on 
job reporting, strengthening project and financial oversight, 
maintaining measures to combat fraud, waste, and abuse, and 
finally, effectively implementing its new TIGER and high-speed 
rail programs. Failure to address these challenges could have 
significant cost and schedule implications in the future.
    Our ongoing audit of FAA's jobs reporting found problems in 
the accuracy of the data, such as one airport that received 
funds through FAA's $1.1 billion airport improvement program, 
reporting over 100,000 more job hours than actually occurred. 
This work also identified weaknesses that relate to DOT's 
process for estimating and reporting jobs information to 
Congress under section 1201. DOT did not report an estimate of 
indirect jobs or how it calculated the total number of jobs 
funded. Providing this information would enhance transparency, 
and more fully satisfy congressional requirements.
    Strengthening DOT's project and financial oversight is also 
important. The Federal Highway Administration, which accounts 
for more than half of DOT's recovery budget, is taking action 
to address weaknesses we identified in its national review 
teams, actions that should help FHWA remove known 
vulnerabilities, identify emerging risks, and assess States' 
corrective measures.
    FHWA is also updating its regulations to help ensure States 
conduct value engineering studies to objectively review design 
alternatives on highway and bridge projects.
    FHWA has other opportunities to improve project 
performance. It has acknowledged the risks associated with 
local public agencies, and our ongoing work indicates that some 
LPA projects continue to fall short in complying with Federal 
requirements for quality assurance and processing of contract 
changes.
    Promoting fuller competition could also help achieve cost 
savings in FHWA's ARRA-funded contracts, as well as its other 
Federal aid contracts.
    Ensuring rigorous financial oversight of grantees has also 
been a challenge for the Department. In a review of AIP 
payments commissioned by FAA, consultants determined that 14 of 
24 airports did not have adequate support to justify their ARRA 
payment requests, consistent with findings we reported on FAA's 
oversight of non-ARRA-funded AIP grants.
    Across the Department, full compliance with OMB's single 
audit requirements for ensuring grantees implement corrective 
action plans would help prevent improper payments and provide 
timely action on questioned costs. Over the past year, we have 
issued 66 single-audit action memos on deficiencies in 
grantees' oversight of ARRA funds. Our ongoing work identified 
16 questioned cost findings, totaling $3.7 million, with final 
decisions or repayments pending for an average of 20 months.
    The surge in ARRA funding and construction activity also 
demands continued aggressive pursuit of counterfraud efforts. 
As of March 2011 we have 51 open ARRA investigations, 45 of 
which the Department of Justice is reviewing for potential 
prosecution. One of the strongest deterrents against contract 
fraud is DOT's ability to make timely suspension and debarment 
decisions. However, last year we reported that many of the 
Department's S&D decisions had been pending for a year or 
longer. DOT has issued a revised S&D policy, but sustained 
focus is needed to ensure S&D decisions are timely, and prevent 
unethical parties from bidding for and receiving contracts.
    Tackling all the challenges I have outlined will be 
critical for DOT to effectively implement its TIGER and high-
speed rail programs. Standing up these programs requires direct 
oversight of large infrastructure projects, a role OST and FRA 
have not previously performed. Based on our work to date, OST 
is on track to meet its ARRA-required deadline to fully 
obligate funds for all TIGER contracts. However, effective 
oversight and management of the TIGER program will be highly 
dependent on OST's coordination with the operating 
administration administering those TIGER grants.
    Our high-speed rail work indicates that FRA has not issued 
sufficient guidance for forecasting benefits, and establishing 
access agreements between States and the freight railroads.
    In addition, FRA has yet to finalize policies and 
procedures that would ensure a core set of grant management 
responsibilities are carried out. With the majority of program 
implementation and construction ahead, FRA has an opportunity 
and an obligation to build in oversight controls before a 
significant amount of ARRA funding is spent. We will continue 
to assist the Department in its efforts to ensure all ARRA 
funds are spent wisely, and we remain committed to promptly 
notifying Congress and DOT of actions needed to achieve ARRA 
goals.
    Mr. Chairman, this concludes my prepared statement. I would 
be happy to answer any questions you or other members of the 
committee may have.
    Mr. Mica. Thank you, and we will hold those questions until 
we have heard from the other panelists. And next I recognize 
Arthur Elkins, inspector general of EPA.
    Welcome. You are recognized, sir.
    Mr. Elkins. Thank you. Good morning, Chairman Mica, Ranking 
Member Rahall, and members of the committee. I am Arthur 
Elkins, Jr., EPA Inspector General. I am pleased to appear 
before you today for the first time since becoming IG in June 
2010 to discuss our Recovery Act activities.
    The Act was intended to create jobs, stimulate economic 
recovery as quickly as possible, and invest in infrastructure. 
The Act's purpose, as it applies to EPA, is to promote economic 
recovery by creating jobs, while also promoting a healthier 
environment. Toward that end, EPA received over $7 billion for 
6 EPA programs, $6 billion of which went to the Clean Water and 
Drinking Water State Revolving Funds.
    EPA has some noteworthy accomplishments. For example, EPA 
has obligated over 99 percent of its Recovery Act funds. All of 
its State Revolving Funds awarded to States were under contract 
or construction by the statutory deadline. We expressed 
concerns about EPA being able to meet this deadline. And, to 
their credit, they accomplished this task.
    Also, the OIG has detected limited fraud of EPA funds so 
far. Recipient reporting requirements and greater transparency 
seem to have made a positive impact. However, experience shows 
that complex fraud schemes take time to surface, so sustained 
vigilance is necessary.
    While EPA quickly obligated its Recovery Act money, we have 
seen some implementation issues. I would like to highlight 
three issues this morning.
    First, EPA is unable to assess the overall impact of its 
Recovery Act funds on disadvantaged or environmental justice 
communities. The goals of the Recovery Act, which, as you know, 
is to create and retain jobs, promote economic recovery, and 
assist those most impacted by the recession, are outside of 
EPA's mission to protect human health and the environment. The 
Act's intended results are not traditionally tracked by EPA.
    As a result, our work shows that EPA has had difficulty in 
identifying and targeting economically disadvantaged 
communities. Their effort was hindered by the absence of 
definitions, data, and measures. Multiple constraints limited 
EPA's ability to target funds to preserve and create jobs, as 
well as reach those most impacted by the recession.
    Of note was the ``shovel-ready'' requirement and the short 
timeframes to allocate funds. EPA programs require all 
applicants to meet program criteria. For water and wastewater 
projects, applicants had to demonstrate some preparedness, 
including completion of design plans and permitting processes. 
However, communities most in need often lacked the financial 
resources to develop the necessary design plans or to prepare 
applications. Those communities who did not have the necessary 
materials prepared in advance were unable to compete for funds.
    In addition, among the Recovery Act-funded programs at EPA, 
States made the funding decisions for 86 percent of the funds. 
Whether and how socioeconomic conditions influence project 
selection was at their discretion. The result was that EPA's 
ability to target economically disadvantaged areas that have 
environmental needs was adversely impacted.
    Second, EPA did not always develop clear, comprehensive, 
and timely guidance for recipients. One example was how to 
determine the eligibility of green reserve projects. 
Specifically, EPA did not provide guidance on how to solicit 
and select green projects until after many States had finished 
doing so. Moreover, EPA's guidance and subsequent updates have 
not addressed important aspects of project selection. As a 
result, EPA could not provide a reasonable assurance that its 
green reserve projects will meet Congress' objectives.
    Finally, EPA should ensure that it has sufficient contracts 
and grants staff to perform both Recovery Act and non-Recovery 
Act activities. While EPA made the Recovery Act a top priority 
by shifting its existing contract and grant administration 
staff to those activities, the process was not always based on 
workforce analyses of the actual resources needed. As a result, 
this left less time for staff to focus on non-Recovery Act 
administration, monitoring, and oversight. This leaves EPA 
contracts and grants susceptible to undetected errors.
    In closing, while we have noted implementation issues, we 
have not seen significant problems with Recovery Act funds at 
EPA so far. However, I must stress that the story is still 
unfolding. As I mentioned earlier, complex fraud schemes often 
take time to surface so EPA must not take its eye off the ball. 
Also, we have concerns that there may be insufficient EPA 
oversight to ensure that projects are completed on time, and 
environmental objectives achieved. EPA's oversight funds must 
be obligated by the end of fiscal year 2011, yet many Recovery 
Act projects will not be completed by that date.
    The OIG will continue to monitor and assess EPA's Recovery 
Act activities in these and other areas. I want to thank you 
for the opportunity to testify before you today. I would be 
pleased to answer any questions the committee may have. Thank 
you.
    Mr. Mica. Again, we will defer for questions.
    And I will recognize first Phillip Herr, and then we will 
go to David Trimble.
    Mr. Herr. Thank you. Chairman Mica, Ranking Member Rahall, 
and members of the committee, I am pleased to be here today to 
discuss GAO's work on Recovery Act transportation programs. 
Drawing on prior and ongoing work, I will discuss the status, 
use, outcomes, and lessons learned across several programs, 
including the TIGER and high-speed rail efforts.
    In terms of funding status, of the $48 billion available 
for transportation programs, about 95 percent has been 
obligated for over 15,000 projects. Expenditures total about 
$26 billion, about 59 percent of available funds.
    Highway funds have been primarily used for pavement 
improvement, and transit funds have been used to upgrade 
facilities and purchase new vehicles. Recovery Act 
transportation projects are reported to have supported about 
50,000 full-time equivalent jobs from October through December 
of 2010. Highway projects accounted for approximately two-
thirds of these jobs, with transit and other projects making up 
the rest.
    We recommended that DOT determine the data needed to assess 
Recovery Act transportation impacts, but it has not committed 
to doing so. We continue to believe that effort is important.
    Several lessons learned from Recovery Act programs may be 
relevant to reauthorization decisions. States were required to 
certify they would maintain planned transportation spending 
from February 2009 through September 2010, referred to as 
``maintenance of effort'' in the law. Available data indicate 
that 21 States did not meet planned spending levels during this 
period. This provision was also administratively challenging, 
with seven iterations of DOT guidance being issued to States.
    Federal and State officials stated that more flexibility is 
needed to implement this provision, in light of unexpected 
changes in economic conditions. Going forward, we believe DOT 
is well-positioned to understand how this provision could be 
improved and implemented.
    Another unique feature of the Recovery Act was targeting 
economically distressed areas. This also proved challenging due 
to variation in how some States prioritize projects. DOT also 
had ongoing challenges maintaining data on this aspect of the 
Recovery Act, and we are continuing to monitor that.
    The high-speed rail and TIGER programs represented 
important steps toward investing in projects of regional and 
national significance through merit-based competitive 
processes, and using cost benefit analysis to inform decisions. 
While generally following recommended grantmaking practices, 
both could have better documented award decisions. In our view, 
the absence of documentation can give rise to challenges to the 
decisions, making DOT vulnerable to criticism that projects 
were selected for reasons other than merit.
    Chairman Mica, Ranking Member Rahall, and members of the 
committee, this concludes my statement, and I am pleased to 
answer questions. And my colleague, Susan Flemming, is here to 
answer questions on GAO's high-speed rail work as well, should 
those arise.
    Mr. Mica. We will hear from Mr. Trimble next.
    Mr. Trimble. I am pleased to be here today to discuss our 
work examining States' use of Recovery Act funds for clean 
water projects. My statement is based on GAO's ongoing work 
examining the Clean Water and Drinking Water State Revolving 
Fund programs.
    As part of this review, we examined the national data, as 
well as specific implementation issues in nine States. 
Nationally, all of the Recovery Act SRF funding has been 
awarded and obligated, and almost 80 percent has been drawn 
down by the States. This money was used to address water 
quality problems, and help fund nearly 1,900 clean water 
projects, with roughly one-quarter of these classified as 
green.
    Clean water projects included secondary and advance 
treatment facilities, storm and sanitary sewers, and projects 
intended to address nonpoint source pollution. About three-
quarters of clean water Recovery Act funds were provided as 
grants or other subsidies. As projects are completed and funds 
spent, the number of full-time equivalent jobs has begun to 
decline from their peak last summer of over 9,000 to just over 
4,000 for the quarter closing in March.
    For the nine States in our current review, the States told 
us that about 20 percent of their clean water SRF funds went to 
projects that served disadvantaged communities, and over 80 
percent of this money was provided in the forms of grants or 
other subsidies.
    State officials did face some challenges in meeting 
Recovery Act requirements. Some officials noted that the 
requirement to have projects under contract within 1 year, as 
well as the requirement for green projects, changed which 
projects they funded. While the Buy American and Davis-Bacon 
provisions generally did not affect project selection, some 
potential sub-recipients declined funding, as they did not want 
to meet the requirements, or were concerned the requirements 
would increase the project's cost.
    Our current work is showing that EPA, EPA IG, and State 
program and oversight and audit staffs continue to conduct 
oversight, and the EPA has taken action on our recommendation 
from last year to improve oversight over Recovery Act funds.
    States' experiences implementing the Recovery Act 
requirements highlight potential future challenges for the SRF 
program, where the green and the additional subsidization 
requirement have been continued. Officials in four of the nine 
States we examined noted that the 20 percent green target was 
difficult to achieve, with one suggesting such goals should be 
encouraged, but without a fixed target.
    Officials in other States noted that requirements to 
provide grants or other subsidies preclude the re-use of this 
money in the revolving loan fund, which means that less money 
will be available to fund future water infrastructure projects. 
The policy tradeoff is that additional subsidization funds 
enable but do not require States to give money to disadvantaged 
communities, if they choose to do so.
    Mr. Chairman, this concludes my prepared statement.
    Mr. Mica. Thank you.
    And now we will turn to Under Secretary Kienitz, and I 
recognize him.
    Thank you.
    Mr. Kienitz. Thank you, Mr. Chairman, Mr. Rahall, and 
members of the committee. Obviously, the staff at DOT from top 
to bottom and in every State have spent hundreds of thousands 
of hours working on implementation of Recovery Act projects. 
And so we are glad to have an opportunity to come talk to you 
about what we have been doing. It has been a very big project 
for us, and we hope the results have been good.
    More than 15,000 transportation projects in all 50 States 
have received Recovery Act funding from our agency. And 9,000 
of these projects have already been completed. And that ends up 
being thousands of new bridges and buses, new runways and 
railways serving the traveling public in communities all over 
the country.
    As of the end of April, DOT has obligated almost 100 
percent of funding in most funding categories. Among the 
projects funded: for highways we were given $27.6 billion, 
that's 13,300 individual projects, including 41,800 miles of 
highway receiving improvements and 2,700 individual bridges; 
for transit we got $8.8 billion, that's 11,400 buses and vans 
that were purchased, and 637 rail vehicles, and more than 
10,000 individual other projects for transit; on high-speed 
rail we have dedicated funding to 738 miles of new routes.
    The TIGER discretionary program mentioned here funded 51 
regionally or nationally significant projects for roads, rail, 
ports, transit, multimodal and other things. Amtrak, which has 
not been mentioned here yet, did get $1.3 billion. They have 
worked on 190 miles of track, 10 individual bridges, 79 rail 
stations, as well as passenger cars and locomotives.
    On the airport side, we did 157 individual runway projects, 
25 air traffic control facilities, and many other smaller 
projects. And there was even a small shipyards program, where 
we purchased cranes, equipment, and machinery for 53 shipyards.
    As of the end of January, these projects have provided more 
than 280,000 job years of work in the overall economy, creating 
both direct transportation jobs, as well as jobs in 
manufacturing and supplier industries. For example, hundreds of 
workers are expanding Highway 24 in California from six lanes 
to eight, to alleviate congestion for the 160,000 commuters 
from Contra Costa who come into the Oakland area.
    We are expanding Interstate 94 in Wisconsin from six to 
eight lanes, from Milwaukee down to the Illinois border. In 
Tampa we are linking Interstate 4 with the Lee Roy Selmon 
Crosstown Expressway to provide trucks with direct access to 
the Port of Tampa without going through downtown, just the kind 
of last-mile investment in intermodal transportation that both 
transportation experts and the members of this committee have 
repeatedly told us need to be a priority.
    We have added enough new buses to the Nation's transit 
fleet that, if we line them all up, the line would be 40 miles 
long. We are restoring the 136-year-old Eads Bridge across the 
Mississippi River in St. Louis, 80-year-old subway stations in 
Philadelphia, and even the Brooklyn Bridge. Recovery Act 
funding has made it possible to repair, restore, and expand our 
transportation capacity all across the Nation, and we are 
better off, as a result.
    While most of the DOT recovery money was distributed to 
State and local authorities using existing formulas and 
programs in which decisionmaking is devolved to the State and 
local level, Congress took some bold steps in the Recovery Act 
to go outside of that pattern.
    First, Congress enacted a competitive surface 
transportation grant program that we have called the TIGER 
program to fund innovative projects from across all of DOT's 
modes. And Congress chose to add a considerable amount of 
funding to the previously authorized high-speed rail and 
intercity passenger rail programs.
    We are very proud of the partnerships we have created with 
State and local communities as we have implemented those two 
popular programs, and we are pleased that we were able to use 
these programs to introduce the kind of competitive and merit-
based approach to project selection that the President and the 
administration have long advocated and that the GAO has 
advocated for a long time, as well.
    GAO recently published two reports on our Recovery Act 
work: one on TIGER and one on high-speed rail. And we are 
pleased that they generally found we did a good job in carrying 
out the congressional mandate and in running those programs 
according to good grantmaking practices. And, in fact, we did 
some checking. Since 1970, GAO has issued almost 169,000 
individual reports and opinions. And does anyone here know how 
many of them use the word ``good'' in the title? Fourteen out 
of one hundred sixty-nine thousand, which is less than one in 
ten thousand. So we are proud that they were able to say that 
we used good grantmaking practices in one of the titles. Though 
I suspect, now that I have said this, it will be the last time 
that they ever do that.
    [Laughter.]
    Mr. Kienitz. But in addition, we have respected 
particularly the GAO's work in which they have been saying for 
a long time that the outcomes achieved from Federal funding for 
transportation could be improved by having the kind of 
competitive programs that are embodied in TIGER and high-speed 
rail, and that is something that we are very much believers in, 
and we have worked very hard to stand those programs up from 
nothing.
    So, thank you for the opportunity to testify today, and I 
am happy to answer questions.
    Mr. Mica. Thank you. I think we have heard from all the 
witnesses now, and we will turn to questions. And I have a 
couple of questions.
    First of all, one of my concerns--well, the stimulus was 
intended to provide jobs in economically depressed areas. And I 
think that was one of the directives included in the 
legislation. And, unfortunately, I have got two charts of some 
of the outlays for funds, particularly, I guess, in the TIGER 
grants, which was the discretionary funds that DOT gave out. 
And we had total, I think, of $2.3 billion given to States.
    For example, $171 million went to North Dakota, with an 
unemployment rate of 3.6; $225 million went to Nebraska, with 
4.2 percent unemployment; $211 million went to South Dakota, 
with a 4.9 percent unemployment. And then States like Florida, 
we had very high unemployment, and we got zero, I think, on the 
first round of TIGER grants.
    Did you look at any of this, Mr. Scovel, about the intent 
of Congress, and then applying the money to States that had the 
greatest unemployment need?
    Mr. Scovel. Thank you, Mr. Chairman. I must say that we did 
not. In coordinating our work with that of GAO, we split the 
workload so that GAO would function, essentially, on the first 
part of implementing the TIGER program, up through the grant 
selection decisions.
    Mr. Mica. And----
    Mr. Scovel. We are looking, in my office, at the management 
and oversight implications.
    Mr. Mica. Mr. Herr or Mr. Trimble, did you look at the 
intent of Congress, and also the expenditure of money in regard 
to providing assistance to hard-hit economically depressed 
areas?
    Mr. Herr. Chairman Mica, in the transportation work we did 
look at the focus on projects in economically distressed areas. 
As part of the larger body of work we did on transportation, 
one of the concerns that we saw was that the tracking system 
DOT established had some inaccuracies in it.
    Mr. Mica. Had some what?
    Mr. Herr. Had some inaccuracies, in terms of how the 
projects and EDAs were being identified by the States. But we 
were doing that on the broader effort.
    Mr. Mica. But nobody really has an analysis of the program 
meeting Congress' intent?
    Mr. Herr. Well, in terms of the TIGER program specifically, 
those grants had been made a little later in the process.
    Mr. Mica. But you did not----
    Mr. Herr. We did not look specifically at that piece.
    Mr. Mica. OK. One of the things you did say was a 
significant amount of the DOT money went to paving. I was told 
it was about 50 percent or more. Is that correct?
    Mr. Herr. It's a little higher than that. Pavement-related 
spending is about 70 percent, sir.
    Mr. Mica. Oh, it's 70 percent. So--and most of those jobs 
would not be permanent jobs, would they?
    Mr. Herr. Well, that would be usually a shorter term 
process, or projects that could be gotten underway quickly. 
That would be correct.
    Mr. Mica. Does anyone know--we have different categories of 
funds, some expended out of the Treasury. Of the $63 billion--
well, maybe you could take DOT, $48 billion DOT. What 
percentage of that has actually been spent out of the Treasury?
    Mr. Herr. The data that we have is provided today in my 
statement, where you can see the total----
    Mr. Mica. Give it to me again.
    Mr. Herr. Fifty-nine percent.
    Mr. Mica. Fifty-nine percent. So, 40 percent is still in 
the Treasury. You said allocation is a higher number. What's 
the allocation to date?
    Mr. Herr. At this point the total obligated is $45 billion, 
or just about 96 percent.
    Mr. Mica. Ninety-six percent. Now, one of the things that I 
have noticed is there has been--since the program takes so 
long, and there are delays in approvals and States run out of 
money, there has been a fair amount of reallocation. Do you 
have a figure on reallocation?
    Mr. Herr. We had data as of last year.
    Mr. Mica. I am sorry?
    Mr. Herr. We had information that was current as of last 
year----
    Mr. Mica. I cannot hear two people speaking here, I am 
sorry.
    Mr. Herr. I can get updated information. We have a report 
on the Recovery Act that we are going to be issuing next month, 
that could discuss how funds have been reallocated.
    Are you specifically asking about money that was moved from 
highways to transit?
    Mr. Mica. No, just reallocation. Projects went south. Well, 
and any money that was moved from accounts. But I am told a 
very significant amount of money had to be reallocated. And you 
don't have that figure?
    Mr. Herr. We had information earlier in our work. There 
were a lot of bid savings in contracts. And so, in some cases 
there were actually more contracts awarded because of bid 
savings.
    Mr. Mica. Right, projects came in at lower cost.
    Mr. Herr. At lower cost.
    Mr. Mica. But that is not what I am talking about. I am 
talking about projects going south, or not moving forward, and 
then reallocation. You don't have a----
    Mr. Herr. My understanding from prior work was it was a 
relatively low percentage.
    Mr. Mica. That was what?
    Mr. Herr. A relatively low percentage.
    Mr. Mica. But you do not have an amount----
    Mr. Herr. Not today, sir.
    Mr. Mica. OK. High-speed rail. Unfortunately--well, I 
believe I am the most prominent advocate of high-speed rail in 
the Congress. I wrote some of the PRIIA Act provisions for 
high-speed rail, some of which were ignored in the stimulus 
program.
    But I couldn't think of a worse start of any program--you 
mentioned high-speed rail--we had sort of a bait and switch 
operation that people thought they were getting high-speed 
rail. The governor of, what is it, Ohio--that project was 39 
miles an hour, huge expenditure of funds. You could have taken 
a bus and gotten there faster, even after spending the money 
that Governor Kasich sent back. The system, that 39 miles an 
hour is not high speed. Or even if it had gotten up to 50 miles 
an hour is not high speed. That is correct. Isn't it, Mr. Herr?
    Mr. Herr. That would be my understanding.
    Mr. Mica. Yes. And then the route from Chicago to 
Wisconsin, that was a 78 or 80 miles an hour. That was not 
high-speed rail, either, was it, that came back?
    Mr. Herr. That would be my understanding.
    Mr. Mica. Yes. And the Florida project was 84 miles in 
length, and it took 1 hour to go the 84 miles. How fast would 
that be going, average miles per hour, Mr. Herr?
    Mr. Herr. Doing the math in my head, somewhere under 60.
    Mr. Mica. That would be 84 miles an hour, sir.
    Mr. Herr. Oh, I----
    Mr. Mica. Got to work with--we have definitely got to work 
with you, sir.
    Mr. Herr. Well, I misunderstood your question.
    Mr. Mica. In fact, we may have to recalculate all the 
information he gave us, on that basis.
    [Laughter.]
    Mr. Mica. But that was not a high-speed rail project, 
either. And being a strong advocate, again, it was $8 billion 
of stimulus money, plus another $2.5 billion through a regular 
appropriation we worked on with Mr. Oberstar.
    And the only potential now we have of high speed--and, 
unfortunately, the California project is between Fresno and 
Bakersfield, there is mostly farmland in between, and very 
little population to support a high-speed rail system. We will 
not see high-speed rail in any of our corridors. Is that 
correct, Mr. Herr? Do you know? Or Mr. Kienitz, do you want 
to----
    Mr. Kienitz. I would be happy to respond to that line of 
argument. I would say that the congressional definition of 
high-speed rail----
    Mr. Mica. Is 110 miles an hour.
    Mr. Kienitz. Is achieving peak speed----
    Mr. Mica. That was watered down for Amtrak, because the 
international one is 120. But most high-speed rail systems are 
operating at 150, and some are operating at 180 miles an hour.
    Mr. Kienitz. And I have ridden them, and they are 
impressive. The Wisconsin----
    Mr. Mica. But we won't be riding one in the United States.
    Mr. Kienitz. I have--I am confident----
    Mr. Mica. Between any metropolitan areas.
    Mr. Kienitz. I am confident----
    Mr. Mica. With any significant population.
    Mr. Kienitz. I am confident. I have more confidence than 
you, perhaps.
    The Wisconsin segment you mentioned does peak at 110 miles 
an hour. And so, as a legal matter, it is called high-speed 
rail. I think we all wish it were faster.
    Mr. Mica. Well, Florida would have gotten up to 150 miles 
an hour.
    Mr. Kienitz. Right.
    Mr. Mica. In a peak. But so does Acela, it gets to 150 
miles an hour on the Northeast Corridor. But its average speed 
is around 80 miles an hour in the southern half, and 65 miles 
an hour from New York to Boston.
    And I am not trying to bust your chops. I spent time with 
the Secretary, Mr. Rahall and myself, I spent a lot of time 
this past weekend with the Vice President, and will continue. I 
want to see a success. I compliment the administration for 
finally--what, a month ago--designating--didn't you designate 
the Northeast Corridor finally as a high-speed corridor 
eligible for some Federal assistance?
    Mr. Kienitz. And we are hoping that bears fruit soon.
    Mr. Mica. Well, when we have that announcement--when is the 
fruit announcement coming?
    Mr. Kienitz. Soon.
    Mr. Mica. Anything you can tell the committee?
    Mr. Kienitz. Sadly, I would get in big trouble if I said--
--
    Mr. Mica. But is it a week, 2 weeks, a month, a year? I 
mean my term ends next November, and----
    [Laughter.]
    Mr. Kienitz. It is not a year. I will give you that. No, we 
have placed a high priority on getting this money out quickly. 
So the process by which we solicited applications and are 
making decisions for this will be faster than any other process 
that we have done.
    Mr. Mica. So within the next 30 days you would anticipate 
that you would have some announcements?
    Mr. Kienitz. You said it, not me.
    Mr. Mica. Let me yield. Maybe you could get more out of 
him, Mr. Rahall.
    [Laughter.]
    Mr. Rahall. Let me ask Mr. Kienitz of DOT and Mr. Herr of 
the GAO, putting in context that this is the first time DOT 
ever had a plan to award and oversee two discretionary grant 
programs of this size, the TIGER and the high-speed rail, are 
you pleased with the results of GAO's audits?
    Mr. Herr. Mr. Rahall, our work showed that DOT did a good 
job of setting up criteria. And on the technical review side 
they established panels that did their due diligence.
    One of the concerns that we had about how TIGER came out 
was it was difficult for us to understand the basis for the 
final decisions, and the documentation for those. Our 
recommendation to DOT is to improve the documentation of major 
decisions throughout the process. And I was very pleased to see 
in Mr. Kienitz's statement today that DOT has agreed to move 
forward with that recommendation.
    Mr. Kienitz. Yes, the nature of the GAO process is very 
long and involved. We received in draft form a recommendation 
that we could have done a better job documenting the review 
team level work on TIGER. So in the TIGER II process, which we 
completed 6 months ago, we implemented that recommendation and 
plan to improve it further for the TIGER III that is now 
upcoming. So, we took that as a responsible critique, and have 
attempted to do it.
    Mr. Rahall. Continuing with you, Mr. Kienitz, approximately 
15,000 Recovery Act highway, transit and aviation projects, as 
you have referenced, have broken ground all across the country. 
Can you give us a little more on the economic impacts of these 
projects? And when these projects are completed, what will the 
taxpayers get in return for their money?
    Mr. Kienitz. Yes, it is a quite long and quite impressive 
list of tens of thousands of miles of road that have been 
improved. Almost 12,000 new transit buses, 157 runways, ports, 
airports, and 2,700 bridges have been improved. It is an 
impressive list.
    I think the issue that we are running into now is the good 
news in that 9,000 of the projects are done, and many of the 
rest of them are close to being done. Eventually the last 
dollars will be paid out, as the last invoice is submitted, 
once the project is done. The difficulty we have there is it is 
true for construction projects generally that every 
construction job is, to some degree, a temporary job. You 
identify a project, you design it, you build it, and then it is 
built.
    Hopefully, these projects are of a kind that are generating 
generalized improved economic performance that helps support 
the economy in the future. But the direct construction 
employment, as we complete projects, is inevitably going to 
wind down.
    And, in fact, the numbers we have been looking at for 
reporting the total job numbers employed during that quarter 
for transportation recovery projects are less than in the 
quarter before. And we fear that that is part of a downward 
trend, where it peaked during the first and second summers of--
in the construction season, and now that we are 2 years gone it 
is going to inevitably go down.
    So, I think this is why your interest and the chairman's 
interest in getting a long-term reauthorization has been right 
on point, and we agree with that.
    Mr. Rahall. Would you not agree that Vice President Biden's 
leadership--that these projects and the money spent under are 
perhaps the most scrutinized, sanitized, and transparent 
spending of government--of taxpayers' money in your history?
    Mr. Kienitz. I would certainly say it is the most 
scrutinized thing that DOT has ever done. A lot of the 
reporting that we do, and the transparency that we do, is 
pretty routine. We normally do it. It is just that, to be quite 
honest, no one ever looks at it. What is happening this time 
is, because it was such a high-profile activity, all of the 
things that folks do as a matter of course are getting intense 
scrutiny. But we also had additional levels of reporting.
    Generally, every agency receiving Recovery Act funds had a 
whole set of reporting that you had to do. DOT, because of the 
work of this committee, we have our own separate, additional 
layer of reporting, where we report to you on what we are 
doing.
    So, the amount of work that has gone into documenting this 
stuff is massive. What we have basically found from that, 
though, whether it is economically distressed areas or total 
jobs created, the fundamental requirements of the Recovery Act 
were not, ``DOT, go out and count the jobs; DOT, go out and 
determine the Recovery Act.'' It was, ``DOT, make sure your 
grantee goes out and counts the jobs and tells you; make sure 
your grantee tells you whether it is in a distressed area or 
not.''
    And so, we are fundamentally dependent--when you are doing 
15,000 projects, we are not going to send DOT agents out to 
stand at the job site of all these projects. We are dependent 
on the reporting that we get back. And what we find is a lot of 
the reporting is really good, particularly from the more 
sophisticated--California Department of Transportation has got 
100,000 employees, it is a huge, professional organization. But 
we also have some tiny, little shipyard somewhere that got a 
new crane, it has got six employees, they have never been 
involved in this any more, they do not know how to do it.
    So, I think, as a whole, the numbers we got were valid in 
their totals, but there are some people who are not very 
experienced in this work that were involved for the first time.
    Mr. Rahall. Would any other member of the panel wish to 
comment on that point?
    Mr. Scovel. Thank you, Mr. Rahall. Our work shows that the 
Department can increase its transparency, and ultimately the 
utility of the data that it provides to Congress and to the 
taxpayer by paying more attention to the job data.
    Mr. Kienitz referred to the Department's requirement under 
section 1201 to report direct jobs, indirect jobs, and total 
jobs. Our work has shown that, with greater attention, the 
Department could, especially with respect to indirect jobs and 
total jobs, provide data of greater utility to the committee 
and to the taxpayer.
    Mr. Rahall. Thank you.
    Mr. Kienitz. And I might just respond on that point. 
Theoretically, you can count direct jobs. It is up to our 
grantees to do that. But you cannot count indirect jobs. An 
indirect job is, if the workers are going and buying 
sandwiches, and there is a guy making sandwiches at the shop 
around the corner, then he has a job. There is no way to count 
those.
    So, the only question of indirect jobs is which Ph.D. do 
you listen to who says he knows the answer. And we have got a 
lot of Ph.D.'s and they all--you know, what do they say? When 
you get five economists and you ask them a question you get six 
opinions.
    Mr. Rahall. Right.
    Mr. Kienitz. And we had a lot of those meetings. So I am 
sympathetic with the point the gentleman made, but I am not 
sure it is a perfectible science.
    Mr. Rahall. Thank you. Thank you, Mr. Chairman.
    Mr. Mica. Thank you. Mr. Duncan.
    Mr. Duncan. Well, thank you, Mr. Chairman, and thank you 
for calling this hearing.
    The main concern that people on our side had about this 
stimulus package, first of all, was the tremendous cost. Most 
of us thought we just could not afford it. Today there is 
tremendous concern over this--reaching this $14.3 trillion debt 
limit. I suppose at the time we passed this Stimulus Bill, the 
debt was probably around $12 trillion. And I have always been 
convinced the reason that more people do not get upset about 
that is that those are figures that nobody can humanly 
comprehend, not me or anybody else.
    But there also was some concern because most of us on this 
side of the aisle felt that the bill was sold to the country on 
the--as being almost completely or totally an infrastructure 
package, when only 7 percent, roughly, went to infrastructure.
    But the biggest question I have is one that probably none 
of you can answer. But maybe somebody can enlighten me some. I 
spend many hours each day reading everything I can about these 
bills, and the legislation before us. And when the stimulus 
package was acted on it was referred to in article after 
article as a $787 billion bill. Well, within probably less than 
a year--but I have seen many, many articles since that time 
that have referred to the bill as an $862 billion bill. Now, 
that is a lot of difference, that is $75 billion difference.
    The Congressional Budget Office apparently issued a revised 
estimate of $812 billion in January, but said it is likely to 
go up from that figure.
    Can somebody give me an explanation as to how a $787 
billion bill, which is what we were told at the time we voted 
on it, turned into an $862 billion bill, or some figure in 
between there?
    Mr. Kienitz. I am obviously not an expert in this area.
    Mr. Duncan. Yes.
    Mr. Kienitz. But I think I know the answer, which is it is 
on the tax provisions, not any of the spending or 
infrastructure money. We get a very exact amount of money, and 
we spend that exact amount.
    On the tax side, if you are giving tax cuts, you have to 
make an estimate of how much taxes people will pay in the 
coming years, and then how much less they will pay if you give 
them a rate cut. But the actual amount that people end up 
paying and the amount they would have paid depends on what 
employment is in the economy, economic growth, and income tax, 
and they never get the number right.
    I think the answer is they underestimated the amount of 
income that would have been earned, that was going to be 
earned. And so, the tax cuts actually ended up being of greater 
value, because people got more tax cuts than they would have, 
which means the cost of the bill is higher. I think that is the 
answer.
    Mr. Duncan. So----
    Mr. Herr. Mr. Duncan, there were also some credits for 
energy efficiency, and things of that nature. So if somebody 
opted to, say, upgrade a particular kind of system for their 
home, they could get a tax credit for that, as well. That would 
be along the lines of what Mr. Kienitz was just describing.
    Mr. Duncan. I don't think that was made clear to us. I 
thought that, at the time, it was sold to us as being at least 
a maximum of $787 billion, because I have read many, many 
articles about it. But at least that is somewhat of an 
explanation, I suppose.
    What--there are several other things that questions have 
been raised about. For instance, it says the--in one of the 
memos it says the FAA emphasized in public testimony its goal 
to select the highest priority projects defined by the FAA as 
having a score of 62, yet the FAA awarded over 80 grants to 
lower scoring projects.
    Does anyone know why the FAA awarded those grants to 
projects that did not meet their own qualifications?
    Mr. Scovel. Mr. Duncan, we have some information on that 
particular point. FAA was funneling its ARRA money through its 
airport improvement program, and set initially a score of 62 in 
the national priority rating as the cut-off point for projects 
that would be considered for ARRA funding.
    In addition to the criteria that were established by the 
Act and by the President for ARRA funding, FAA also established 
geographic distribution requirements and also put limits on the 
sizes of individual awards. By the time all of those factors 
were considered and folded in together, some lower priority 
projects ended up being funded with ARRA dollars.
    In February, we issued a report that indicates, for 
instance, five very small village air fields in Alaska received 
a total of $59 million, equivalent to what the entire State of 
Texas received, and more than Florida, Illinois, or New York.
    We concluded that FAA ultimately did not pay sufficient 
attention to the required guidance, the criterion to optimize 
economic activity with regard to the Federal expenditure of 
these ARRA dollars. In fact, they considered that that would be 
accomplished through their normal AIP program. But when they 
layered on these additional geographic requirements and size 
limits, it ended up creating anomalies like those of the small 
Alaska air fields that I just described.
    My office does not wish to take issue with the fact that 
improvements were needed to those individual air fields, or 
that they did not belong on the priority listing for the 
airport improvement program in general. However, it does raise 
the reasonable question, we think, that with regard to ARRA 
dollars specifically, the creation of these anomalies showed 
that there were unintended consequences by FAA's decision to 
layer on additional requirements to those of ARRA.
    Mr. Kienitz. And if I might comment on that?
    Mr. Duncan. Yes, sir.
    Mr. Kienitz. The only thing that I would say is that, as I 
have spent the last several years working at the Department, we 
have a myriad of programs which have geographic diversity 
requirements layered on to them. And most of those are 
congressionally mandated. And that has everything to do with 
people who represent small communities that think the Federal 
Government is never going to see them, or care about their 
projects, and so Congress writes it as a rural minimum, or it 
is a requirement for geographic diversity, and so we have lots 
and lots of programs.
    And we end up, often, with this type of criticism that says 
if you had provided a rigorous cost benefit analysis, you would 
not have funded the project in rural Idaho or Oklahoma or 
somewhere. And I think our view of reasonable geographic 
diversity is actually a policy goal that the country has 
adopted for a long time. And as long as Congress tells us to 
keep doing that, I think it is our job to do it.
    Mr. Scovel. Mr. Duncan, if I may?
    Mr. Duncan. Yes.
    Mr. Scovel. One of the points we also made in regard to 
your question has to do with this. FAA funded 360 projects with 
ARRA dollars under the airport improvement program. It 
published data on those projects, and the rationales for their 
selection in the cases of 280; 80 projects were left to the 
speculation of those who were viewing the results of FAA's AIP/
ARRA-funded selection process.
    When transparency is stated as one of the goals of this 
program, and when, as the under secretary correctly points out, 
the geographic distribution is a key goal of congressional 
programs like this, certainly the agency--in this case, FAA--
ought to undertake greater transparency with regard to 
explaining its decisions.
    We were notified last week, as we prepared for the hearing, 
that, in fact, FAA, by the end of this month, will publish data 
now on those 80 low-priority airports that it selected for ARRA 
funding.
    Mr. Duncan. All right. Thank you very much.
    Mr. Mica. Other Members seek recognition? Ms. Norton?
    Ms. Norton. Thank you very much, Mr. Chairman. Part of what 
occurred in this quite extraordinary process could form the 
basis for best practices, and part of it probably could not. 
The transparency, unprecedented in such projects, the way in 
which we kept track of such projects online and in the 
Congress.
    But in a real sense I have a question about the competing 
criteria. When you are in the middle of a recession, and you 
have got to get the money out on the streets--or at least that 
is what you want to do quickly to make jobs--if you compare the 
agency that came under my jurisdiction when I chaired the 
Economic Development Subcommittee, the GSA, you were dealing 
with one of the few Federal agencies that could, in fact, make 
the contract themselves--compete, put out the contracts 
themselves. So there was no pass-through. And thus, GSA was 
able to get its money out quicker than the States.
    And, of course, they found, as the States did, that bids 
were coming in lower, because we were in a recession. And they 
were able to do 17 additional projects beyond those that were 
authorized. So we haven't had any trouble with them. But it was 
interesting to see the difference.
    Now, flip to the States, where they too have to compete. 
And we have got to get to a pass-through to get to them, and 
through our processes to get to them. Then we say, ``Be shovel-
ready, no fraud and abuse, and high quality'' at the same time.
    So, I want to know two things: one, whether you found any 
more fraud, waste, and abuse in the Recovery Act projects than 
would typically be found in such projects; and I would like 
your views on, given the competing criteria, whether you 
thought the States, for the most part, were able to handle this 
mixed message of what was required of them.
    So, first, was there any more fraud, waste, and abuse than 
you normally find in such projects?
    Mr. Scovel. Ms. Norton, I can speak from the basis of our 
investigative work in the Department of Transportation's office 
of inspector general.
    In fact, we have been very pleasantly surprised that we 
have not found more fraud than we have. And we have also been 
pleasantly surprised that we haven't found any remarkable 
variations on the types of fraud that we have found in the 
past. Bottom line, fraud is fraud. It depends on what pot of 
money the fraudster is trying to reap his benefits from.
    We have--I think I mentioned earlier we currently have open 
51 investigative cases. Frankly, that number is a little bit 
high, and it is because we have lowered our investigative 
threshold in order for us to pay more attention to ARRA cases 
that may come to our attention, as well as meet the requests of 
the Department of Justice, who have indicated that they want to 
pay more attention in their prosecutive efforts, too, to ARRA 
cases.
    But I think, speaking from my vantage point as a member of 
the recovery, accountability, and transparency board, many of 
us in the inspector general community have been pleasantly 
surprised that the level of fraud has not been higher. Much of 
that is due to the remarkable oversight, the attention that is 
being paid by the Congress, by our respective agency heads, by 
offices such as mine. We do worry that the fraudsters may be 
looking to other pots of money, so that is why they are not 
dipping into stimulus funds right now, but we are keeping a 
very, very close eye on it.
    Ms. Norton. Mr. Elkins?
    Mr. Elkins. Yes. Ms. Norton, I would concur with Mr. 
Scovel. Our findings at the EPA, with our work, is that we have 
also seen very little fraud activity, as well.
    However, I want to caution you. We have only been in this 
for 2 years now, and--the amount of money that has been 
invested at EPA, for instance--we are looking at $7 billion. I 
mean that is the amount of money that pretty much mirrors what 
the EPA's budget was back in 2006, 2007 or so. So we are 
talking a very large amount of money.
    Ms. Norton. Yes, I am aware of that. I am just trying to 
track where we are now, because we are going to be having these 
hearings, and it is important to note because, frankly, the 
press did the right thing in going around the country and 
looking to see whether, with all this haste, you would see 
fraud. And there were not a lot of big stories. So I wondered 
what those of you who look more closely have found.
    The chairman talks about temporary jobs. Now, I just want 
to say on behalf of the million construction workers who were 
out of work since construction work is always temporary until 
you can get the next job, these are precisely the kind of jobs 
that infrastructure seeks to fill. These are jobs that have the 
best effect on reverberating throughout the economy, because 
they stimulate other parts of the economy, as well.
    Now, the criticism that there had been a lot of paving and 
the rest, here we get into my original question about competing 
criteria. We had hearings in this committee: ``Have you gotten 
the money out''; ``How much of it is obligated''; ``How much of 
it is on the street?'' If you are in the States with that kind 
of pressure on you, is the Congress not in effect saying, ``Do 
not target this money, get this money on the streets the old-
fashioned way, we are making jobs, we are stimulating the 
economy, and yes, we are fixing your infrastructure, but you 
have got to do all of these things at the same time''?
    So, was the paving of the streets or similar work that the 
States might not have done almost inevitable to do, in light of 
the mandate of the Congress?
    Mr. Kienitz. I might respond to that, if you don't mind, 
ma'am. I will respond from our work at USDOT, which is we have 
seen a lot of small and medium-sized projects, and it is 
paving, it is guard rail, it is buying transit buses, which you 
can just easily order, it is simply runway projects. What we 
have not seen a lot of is the big, complicated bridge project, 
the big, complicated transit project, the big, complicated road 
reconstruction. They just take too long. They have to sit in 
the pipeline. Even the construction, once you are go, the 
construction could take 3 or 4 years.
    I was in State government in Pennsylvania up until March. 
We started preparing 2 months before the bill passed, because 
we saw that it was going to pass, started putting our list 
together so we would be ready the moment the money showed up. 
And once we started looking, what can we actually get done, it 
was all about small and medium-sized stuff. It really needed to 
be done.
    But what that means--well, for example, in transit right 
now the average age of the bus fleet in the United States is 
getting better. Buses are in much better condition than they 
were. The average condition of old track infrastructure and 
transit systems, where the projects are much, much harder to do 
and more expensive, is still not nearly as good. And not a lot 
of recovery money went into that, because the projects take too 
long.
    Mr. Mica. I thank the gentleman. Time has expired. Mr. 
Shuster?
    Mr. Shuster. Thanks, Mr. Chairman. And thank all of you for 
being here today. My question is to Mr. Kienitz. And I 
understand that USDOT has issued guidance to States regarding 
obligations to the--to comply with the certification reporting 
requirements contained in the maintenance of effort, or the 
MOE, in section 201 of the Recovery Act.
    It is my understanding, under current guidance, that even 
if a State met its cumulative State-certified level effort 
expenditures, that they would still be subject to being 
penalized by a prohibition on participating in this August 
highway redistribution if they failed to meet the requirements 
on a program-by-program basis. Is that correct?
    Mr. Kienitz. That is how the current guidance reads, 
correct.
    Mr. Shuster. I further understand that, under that 
guidance, 14 States would be subject to a penalty.
    Mr. Kienitz. What I would say is we got an initial set of 
data in the fall, indicating a somewhat larger number of States 
would be subject to penalty. We have just recently gotten in 
the new final data, and we are still in the process of 
compiling that. That is a number that I have heard, as well, 
but I would not take it as the final answer. I think we are 
still in the process of making those assessments and decisions.
    Mr. Shuster. Well, are there any actions currently under 
review on this guidance? I understand that you have had some 
conversations and you may be looking differently--looking at 
the cumulative totals, because when you do that you reduce it 
from the 14 States down to just several States under current--
currently, if you look at program by program, Arkansas, 
Florida, Indiana, Kansas, Missouri, New Hampshire, 
Pennsylvania, Rhode Island have all met the cumulative 
expenditures.
    So, are you in discussions right now trying to review that 
and look at cumulative, instead of program by program?
    Mr. Kienitz. Yes. I think as you point out, there are a 
number of States that, no matter how any of this works, clearly 
did not meet the maintenance of effort requirement.
    Mr. Shuster. Correct.
    Mr. Kienitz. But there is somewhere--depending on how it is 
interpreted--the issue we are facing is that the language of 
the statute can be easily read to have two different meanings.
    And so, that is something we are looking at. Our goal is 
not to withhold funds from States, but we do have a 
congressional mandate to do that. And that was something that 
this committee wanted to make sure that when the recovery money 
went out to States, States did not just pull back their own 
dollars.
    Mr. Shuster. Right.
    Mr. Kienitz. And in some cases, I think States are 
suffering from the fact that they have a dedicated tax that 
pays for transportation.
    Mr. Shuster. Right.
    Mr. Kienitz. Economy goes down, tax revenues goes down, 
their spending goes down. There was no affirmative step they 
took to reduce spending.
    Mr. Shuster. Right.
    Mr. Kienitz. It just was reduced. In other cases, there are 
States that----
    Mr. Shuster. Currently didn't--sure.
    Mr. Kienitz [continuing]. Made affirmative decisions to 
take money out of transportation, spend it on things----
    Mr. Shuster. Right.
    Mr. Kienitz [continuing]. And I think that was the 
intention of Congress, to----
    Mr. Shuster. So my understanding, from what you said, is 
you are going to look at the rule and----
    Mr. Kienitz. We----
    Mr. Shuster [continuing]. Maybe look at cumulative? Because 
that is--again, I--when I read the legislative language, it 
looks like there is some flexibility in there, and I think that 
is the key to this, is flexibility. One size fits all--I mean 
Pennsylvania, for instance, missed its--in aviation missed its 
number, but overall it exceeded.
    Mr. Kienitz. Right.
    Mr. Shuster. So, again, they made the effort. And I think 
that that one size fits all, I mean, that is the problem with 
the Federal Government. Too many times we do one size fits all, 
instead of leaving these States some flexibility to decide, OK, 
it is better for Pennsylvania to spend more money on road 
projects than maybe aviation.
    So, is that something--again, I want to make sure I am 
clear--you are going to consider that? You are going to look at 
that and maybe make some changes to the rule?
    Mr. Kienitz. There is certainly discussion going on with 
this question, and I will take your concern back. I know there 
are a couple of other States, for example, where just the 
aviation number was----
    Mr. Shuster. Right.
    Mr. Kienitz [continuing]. The number that is not working. 
So we are--I will take that back, and--as we have these 
discussions.
    Mr. Shuster. Oh, I appreciate that greatly.
    Next question to Mr. Herr. Why do you believe that DOT did 
not comply with the President's directive to be completely 
transparent when they provided the grants for high-speed rail 
and TIGER grants?
    Mr. Herr. In terms of why they did not do that, I am not 
sure I could get behind and understand the reason why. Some of 
it, I think, would be protecting the deliberative process that 
went on in the Department, in terms of the folks that were 
doing the technical reviews.
    We had some questions, which we outlined in our report.
    Mr. Shuster. Right. But your report was--I think was pretty 
clear that you were--you had great concerns of why they were 
not more transparent. And, according to the report, ``Decision 
rationales provided little insight into selections.'' You found 
several instances in which, without documentation, it was 
difficult to determine the reason why some projects were 
selected and others were not.
    Mr. Herr. That is correct.
    Mr. Shuster. That is something that we have been talking 
about here in Congress----
    Mr. Herr. Right.
    Mr. Shuster [continuing]. Asking for that transparency.
    Mr. Herr. Right. We certainly agree that transparency is 
important, sir.
    Mr. Shuster. So, Mr. Kienitz, why haven't we received 
that--those documents? And the transparency--here in Congress, 
most of our--almost all of what we do is online. The President 
is--ran for--came into office and said he was going to be 
transparent, and yet the Department of Transportation has 
stumbled badly on these things. These are billions of dollars.
    So, can you give me an answer why we have not received 
those documents and the criteria and the reasoning why you 
delivered money to various projects?
    Mr. Kienitz. Well, I will answer that question in several 
parts. The first thing that I will say is that, also in the 
GAO's testimony, they found that out of these six grantmaking 
practices that they track--generally for Federal agencies--we 
scored doing a good job on five of them, and on half of the 
sixth. So five-and-a-half out of six is pretty good to begin 
with.
    Second thing I will say is their particular criticism was 
mostly that the documentation of what went on in those final 
discussions was not what it could have been. And as I said 
earlier, we have accepted that as a reasonable criticism, and 
the documentation that we have been providing on subsequent 
rounds of both TIGER and high-speed rail is much more robust.
    As to the third matter of providing documentation, we have 
turned over basically every single document that exists that we 
have on the high-speed rail program to GAO. GAO is the 
investigative arm of Congress. It was set up for exactly that 
purpose. They are professionals, and that is their job, and we 
are following the longstanding practice of giving our material 
to them, let the professionals look at it, and decide what they 
think.
    Mr. Shuster. But according to GAO it is incomplete. Is that 
correct, Mr. Herr?
    Mr. Herr. The information that we have received for TIGER 
was incomplete, yes, in terms of one of the last meetings that 
they had, where some final decisions were made.
    Mr. Shuster. I am sorry, it was incomplete?
    Mr. Herr. Yes, for the final decisions that were made on 
the TIGER grants.
    Mr. Shuster. And that is, again----
    Mr. Kienitz. I believe we provided the information. I think 
that they found that the documentation of what actually 
happened in those final meetings was not what it should have 
been.
    Mr. Shuster. Right. Well, that is the point.
    Mr. Kienitz. We provided them everything that we have.
    Mr. Shuster. That is the point. We want to know why you 
made the decisions, why the money went where it went. And was 
it fairness? And again, they are skeptical if the process, 
overall, was fair or not. And that is what we want to get to 
the bottom of----
    Mr. Kienitz. That is a misstatement. They are not skeptical 
that the process was fair. They said that the documentation 
could have been better. You may be skeptical that the process 
was not fair, but that is not what they said.
    Mr. Shuster. Well, according to some of their conclusions, 
``by not establishing this record, invites skepticism by the 
overall fairness of decision.''
    So, again, that is what we are trying to get at, why the 
money was done. You know, maybe we need to get the folks that 
made those final decisions and get them before the committee to 
determine why they did it. I know you are--I think the GAO said 
they are trying to protect the process, but that is the 
problem. We do not know why it went, and there is--in our mind 
there is some great doubt as to why it went certain places.
    So, again, I would encourage you to continue to bring that 
information forward to GAO, but to Congress, so that we know 
that things are done in a fair and transparent way.
    So thank you very much, and I yield back.
    Mr. Mica. Ms. Brown?
    Ms. Brown. Yes. I just want to let you know that I feel it 
was very fair. Florida got the money, and that is what I wanted 
to happen.
    [Laughter.]
    Mr. Kienitz. We wish they would have kept it.
    Ms. Brown. I wish we could have kept it, too. But quickly, 
let me just ask you a couple of quick questions.
    The chairman often talks about--my friend, Mr. Mica--high-
speed rail. And he forgets an intercity passenger rail. And he 
thinks all--and his definition of high speed is different from 
the international definition, because we do not have the 
infrastructure in place.
    Can you clarify that for me, sir?
    Mr. Kienitz. As a general matter, I have to say I agree 
with the chairman's fundamental underlying point, which is 
high-speed rail is the goal.
    Ms. Brown. It is the goal.
    Mr. Kienitz. What we found in trying to spend $8 billion of 
Recovery Act funding to create jobs as quickly as possible is 
that the state of readiness of grantees to accept funds to have 
fully designed and ready projects to go from what is, frankly, 
a pathetic rail system that we have in a lot of America to 
high-speed rail in one step, it just was not there.
    Ms. Brown. And $8 billion won't----
    Mr. Kienitz. In a couple of places----
    Ms. Brown [continuing]. Take us there, either.
    Mr. Kienitz. Yes. California and Florida, where it had 
stuff that was pretty much ready, and everyone else was back 
behind that.
    And so, we looked to the European experience. And in very 
few places did they go from nothing to high-speed rail in one 
step.
    Ms. Brown. Yes, sir.
    Mr. Kienitz. They went from slow rail to medium rail, 
medium rail to faster rail, faster rail to high-speed rail. And 
I think, over the long term, our country is mostly going to 
have to follow that path. So we are taking a lot of service 
that is 70 miles an hour and upgrading it to 110. Some places 
where there is 110 it is going to be upgraded to 130. The 
Northeast Corridor, they can go faster. California is the one 
place where they are literally starting at nothing and building 
it capable of 220. That is high-speed rail.
    Now, unfortunately, that is going to take 10 years. So a 
lot of the criticism we get about California is, ``Well, where 
is the results?'' Well, in California we are doing what people 
have said that we should have done in other places, and then 
the criticism we get is, ``Well, we cannot--there is nothing to 
see.'' So it is a damned if you do, damned if you don't 
situation a little bit.
    Ms. Brown. Yes, sir. Mr. Herr, you indicated that some of 
the funds was turned back because of Davis-Bacon or Buy 
American provision. What kind of projects are you talking 
about, and how many was turned back?
    Mr. Trimble. I believe that was----
    Ms. Brown. I mean who said that? Yes, sir.
    Mr. Trimble. That's me. Yes, that was in reference to the 
clean water infrastructure projects. And that was--for the nine 
States that we went out and visited, generally the States were 
able to move forward with those requirements. Where that came 
up is in each of those States they mentioned that certain 
projects declined the funding, or were not in----
    Ms. Brown. OK. How many? How many?
    Mr. Trimble. It was anecdotal. They did not track, so we do 
not have numbers on it.
    Generally, this was happening with projects that were 
already under contract. So the applicants did not want to go 
back and revise all their contract documentation.
    Ms. Brown. OK. On the clean water, who was that? Was that 
you, with the water, also? Because basically, the funds went 
into the Revolving Fund, and the States already had the 
projects.
    Mr. Trimble. Right.
    Ms. Brown. So the question was--as we move forward, we are 
trying to learn something from this--is it a conflict, when we 
want to try to get the projects to the most needy area and it 
may be that the States do not--did not take this into 
consideration with their Revolving Fund?
    Mr. Trimble. Well, I think--and I think Mr. Elkins will 
have some work on this, as well, with the targeting to 
disadvantaged communities, the challenge in that, in terms of 
the Revolving Fund for the water projects, is there was no 
requirement to target those monies to disadvantaged 
communities.
    I think the EPA IG has work indicating that EPA does not 
have the data to track what money went to which community. We 
had data, because we had done field work in nine States, and we 
found that about--I believe it was around 25 percent had gone 
to disadvantaged communities.
    Ms. Brown. Well, I am confused because I thought, in the 
overall project, it was to say that so much should go to 
disadvantaged communities.
    Mr. Trimble. I believe that is for transportation. Not on 
the water side. There is a requirement for--a 20 percent green 
requirement, and then there was a requirement for 50 percent of 
the money to be given out as additional subsidization, which is 
grants and things. But that additional subsidization was not 
linked to disadvantaged communities.
    Ms. Brown. OK. I am confused about that.
    Can you tell me the percentage of the stimulus dollars that 
went to tax cuts, and not to, per se, projects or generating 
jobs, just directly to tax cuts?
    Mr. Trimble. I do not have that number.
    Ms. Brown. Does anyone have that information? I think it is 
one-third, but----
    [No response.]
    Ms. Brown. All right, thank you.
    Mr. Mica. Other Members seek recognition? Our side? Mr.--
OK, Mr. Lankford, you are recognized.
    Mr. Lankford? Oh, we need to provide the new Members with 
communications.
    Mr. Lankford. That is right. Freshman Members do not get 
electricity at their station. Keep them in their place.
    I appreciate you all coming in and getting a chance to talk 
about this. I want to further that conversation about some 
communities or States initially having a conversation about 
getting stimulus dollars and then withdrawing on that. Finish 
out that conversation that you had begun. Why do you think that 
is? It sounded like it was paperwork requirements, or other 
things that were going into it, that they would initiate that 
and then step away and say no.
    Mr. Trimble. Yes. Some of the projects, in the majority of 
the examples that we had it was the communities that had those 
projects did not want to go back and amend existing contract 
documents for an ongoing project, to include the Buy America 
requirements, the Davis-Bacon requirements, as well as the 
reporting requirements. So they----
    Mr. Lankford. It was the assumption that it would drive up 
the cost of the project?
    Mr. Trimble. In some cases.
    Mr. Lankford. If they got the Federal dollars, it would 
actually be more expensive than if they just did it locally and 
made local decisions, or----
    Mr. Trimble. Or they would go and get base SRF funds to 
fund that part of the project, or use the bond money for that 
portion.
    So, for example, I believe in Connecticut there was a 
project, it is about an $11 million project. The stimulus money 
was going to be about $1.2 million of that. And rather than 
take on those additional requirements, they went elsewhere for 
that portion of the funding.
    Mr. Lankford. OK. Let me ask a couple questions. Just--the 
State decisionmaking process on the whole--and anyone can 
respond to this--as the States were choosing which projects to 
be able to take on, mostly positive, you would say, as far as 
their decisions on what projects to take, as you look back on 
it now in retrospect, and say, ``They made good decisions on 
those projects''?
    I know the stipulations have had to be quick. We talked 
about the small to medium-sized projects. But on the whole, we 
look at their decisionmaking and say, ``These seem to be 
positive''?
    Mr. Kienitz. I would say, from my point of view, sir, on 
the transportation side we actually had a pretty wide variety 
of strategies that States followed. Some States went to their 
State priority list, went to the first project that was not 
getting money, and went down until the money ran out. Other 
States adopted a very specific strategy to say, ``I am going to 
pick the quickest projects I can possibly get.''
    Other States--I know in Pennsylvania we said bridges are a 
big problem, we are going to put this into bridges. I know 
Kansas, for example, decided to do three or four big highway 
projects, and not spread it around to a bunch of little things.
    So, every single one of them followed the correct 
procedures. Which of those is better? I am not sure I really 
know.
    Mr. Lankford. Not necessarily good or bad----
    Mr. Kienitz. Yes.
    Mr. Lankford [continuing]. But you are saying that they 
seem to be consistently good in making the decisions on that, 
the different strategies----
    Mr. Kienitz. Exactly. But it was all very by-the-book.
    Mr. Lankford. OK.
    Mr. Herr. We looked at the expenditure rates for the 
highway funding and five States are now over 95 percent in 
terms of their expenditures: Oklahoma, Wyoming, South Dakota, 
Iowa, and Maine. And there are two States that have spent about 
one-third: Virginia and Hawaii.
    Three others States are around 50 percent. Virginia pursued 
some bigger ticket projects. But they had different strategies 
to do that, and there were some tight obligation deadlines, as 
well.
    Mr. Lankford. Great. Mr. Elkins, I think you were going to 
try to jump in, as well.
    Mr. Elkins. Yes. Actually, I was just going to comment that 
within EPA OIG we just have not looked at that particular area 
as yet.
    Mr. Lankford. OK. Well, there has been ongoing conversation 
about how much flexibility States should have in making 
decisions about their own transportation dollars and how that 
is handled, and this is a unique experiment for us, to see a 
very rapid decisionmaking process to see how States handle 
flexibility in making decisions on what are the best projects 
they see in their State, rather than from a Federal side 
stepping in and us evaluating for them what we see is the best 
State. So it is just an interesting analogy.
    I do want to be able to follow up, as well, on an initial 
comment that was made about suspension and debarment. Three 
hundred days from making a decision on suspension, 400 days on 
making a decision on debarment. Now, my understanding is that 
has been in the process of changing, which is great. And I want 
to be able to follow up on that. But talk me through the 
process on that, and where things are, from your side.
    Mr. Scovel. Thank you, sir. It was my office that did the 
report----
    Mr. Lankford. Yes.
    Mr. Scovel [continuing]. About a year-and-a-half ago at 
this point, and we testified last year before House Oversight 
and Government Reform on it.
    We examined the Department's suspension and debarment 
process. As you mentioned, 300 days, on average, to reach a 
decision on suspension; 400 days, on average, to reach a 
debarment decision. We found that there was insufficient 
oversight and prioritization and resources allocated within the 
Department to those efforts.
    We also found, frankly, that a couple of the operating 
administrations were imposing their own unnecessary and 
redundant review processes on top of what was stipulated by the 
Department itself. And that created a lot of the delay. The 
risk, of course, when there is that kind of delay, is that not 
only the Department of Transportation, but other Federal 
agencies may award Federal contracts to contractors or others 
whose reliability or responsibility is subject to question or, 
in fact, has been decided through adjudication in the case of a 
conviction.
    Mr. Lankford. Two quick statements. What do you think is a 
reasonable period of time for making that decision?
    Mr. Scovel. The Department has set 45 days.
    Mr. Lankford. All right. That is significantly shorter than 
400 days.
    Mr. Scovel. Absolutely. And the Department has recognized 
the validity of that number, and we would acknowledge that as a 
very worthwhile goal.
    Mr. Lankford. OK. And then, once someone is awarded the 
contract, even if they--you know, let's say they have been 
awarded a contract during that time period of the 
decisionmaking process, then later they are debarred. Does that 
contract then finish out, or is that contract then null and 
void?
    Mr. Scovel. It is my understanding that they have the 
contract at that point.
    Mr. Lankford. Love to be able to follow up with you on that 
one----
    Mr. Kienitz. The only thing I will----
    Mr. Lankford [continuing]. Taking corrective actions, that 
is great. Just talk us through where things are now.
    Mr. Kienitz. Yes, sir. Thank you. The only thing I would 
say is that I think we have recognized this, once again, as 
value added that we have gotten out of the inspector general. I 
mean they are an independent entity and when they do not like 
what we are doing, they certainly tell us. This has been a 
valuable area, and we actually sent our counsel's office up to 
testify in front of the committee about this. This is something 
that is getting the Secretary's personal attention. We have 
established this goal for a 45-day turnaround.
    But I think, as you find in a lot of DOT programs, you 
know, we talk about 1 DOT but we really actually have 10 
independent operating administrations. And so we have a great 
variability in how they have been handling things. So that is 
part of what we are trying to do, is impose a little bit more 
structure on everybody, so there is consistency.
    Mr. Mica. Thank you. The gentleman's time has expired. Mr. 
Holden?
    Mr. Holden. Thank you, Mr. Chairman. Secretary Kienitz, it 
is good to see you again.
    In 2005 in SAFETEA-LU, Congress enacted a $1.7 billion 
program somewhat similar to the stimulus program, the TIGER 
grant program, called the Projects of National and Regional 
Significance program. Unlike the TIGER grant program, however, 
all the projects that were awarded funding in the PNRS program 
were selected by Congress through earmarks. Could you compare 
these two programs, and tell us how the two programs have done 
so far in getting their funds obligated? And could you also 
compare the transparency of the two programs, and tell us how 
much information was provided by Congress on why specific 
projects were selected?
    Mr. Kienitz. As to the obligation rate, I think I can talk 
about that. A number of those programs from SAFETEA-LU, the 
regional and national significance, zero funds have been 
outlaid because the direction to fund a specific project was 
put in for a project that ended up not being viable or not 
being ready, for whatever reason.
    So, I think after 6 years, the obligation rate is in the 50 
to 60 percent range for that program. In 2 years, the TIGER 
grant program, we have obligated, I think, 99 percent of that 
money.
    That is because one of the levels of staff review that we 
do is a fairly intense scrub of the readiness of the project, 
such that we got submissions for a bunch of projects that were 
interesting and valuable and not ready, and basically mostly we 
did not select them, not because they were not valuable, but 
because they were not ready.
    On the question of transparency, I know that our process is 
intensely transparent, and a huge amount of effort has gone 
into that, and we have accepted the critiques that we have 
gotten on that point, and are trying to improve. I think you 
all know more about the process of selecting earmarks than I 
do, so I will just leave it at that.
    Mr. Holden. Well, we happen to like them. At least I do.
    [Laughter.]
    Mr. Holden. I believe in your opening statement--I hate to 
have you repeat it; this hearing has been going on for a 
while--but you talked about the GAO report, particularly on 
intercity passenger rail, when the report referred to ``good 
grantmaking practices.'' I believe you mentioned how often GAO 
uses that term, ``good.'' What percentage----
    Mr. Kienitz. Yes, it is 14 times out of 169,000 individual 
opinions. So it is a rarity.
    Mr. Holden. Very, very rare.
    Mr. Kienitz. Let's just say that.
    Mr. Holden. Thank you. Thank you, Mr. Chairman.
    Mr. Kienitz. Thank you, sir.
    Mr. Mica. Other Members seek recognition? Mr. Capuano?
    Mr. Capuano. Thank you, Mr. Chairman. To begin, on the 
high-speed rail, I want to echo the chairman's comments. But I 
would suggest very strongly that one of the reasons we do not 
have real high-speed rail in this country is because you get 
too many projects going on. Pick one, make it work, and others 
will desire it. Simple. Stop trying to create 50 different 
projects, half of which will never work, and you will make a 
lot more progress, just like we did with subways. Years ago, 
nobody----
    Mr. Mica. Would the gentleman yield? Could I associate 
myself with the remarks of the gentleman? Just for the record, 
so we insert right there that I associate----
    Mr. Capuano. Well, that is--I am just following up on----
    Mr. Mica. Thank you, yield back.
    Mr. Capuano [continuing]. Your comments, Mr. Chairman.
    I guess, first of all, does anybody here know who the 
genius was that, after a year-and-a-half of me and my friends 
getting the living heck beat out of us because of a stimulus, 
some genius decided to stop calling it stimulus and call it 
ARRA? Are any of you the geniuses? Because if you are, we are 
going to have a problem.
    Mr. Kienitz. I am a genius, but I am not that genius.
    Mr. Capuano. Good. Thank you for that one. And, Mr. Elkins, 
I just want to congratulate you. You actually used the word 
``stimulus'' in your title. Thank you for that, because I kind 
of figure if I am going to take the grief for something, when 
it starts working people should know where it comes from. And I 
will tell you nobody knows.
    And I would ask any of you. When we were debating stimulus, 
did any of you call it ARRA?
    [No response.]
    Mr. Capuano. You got that directive after the fact. If you 
find the genius who changed the terminology, please let me 
know.
    I would like to ask the members up here. Any of you have 
permanent jobs?
    Mr. Kienitz. So far.
    Mr. Capuano. Is it permanent?
    Mr. Kienitz. Oh, no. It is at the pleasure of the 
President, actually.
    Mr. Capuano. Anybody here have a permanent job? Anybody in 
the audience have a permanent job?
    [No response.]
    Mr. Capuano. I have the closest to permanent. I am here 
until next January or--if the voters do not decide to change me 
after that. So there is no such thing as a permanent job, that 
I am aware of. If there is, I do not know anybody who has one. 
The concept of creating a job is always temporary, always 
temporary.
    And Secretary Kienitz--you are the only one, I think, to 
use numbers--280,000 job years of work. What the hell is a job 
year?
    Mr. Kienitz. What we are trying to do is, rather than count 
individual people--some have worked 1 hour and some have worked 
every hour of every year----
    Mr. Capuano. But you do realize that nobody has a clue what 
you are talking about.
    Mr. Kienitz. Right. And I can explain----
    Mr. Capuano. When I go home and I say ``job years,'' they 
look at me like I have three heads. How many jobs did we create 
in the Department of Transportation through the stimulus?
    Mr. Kienitz. In the third quarter of last year there were 
65,000 people at work on stimulus projects. But the number of 
areas depended on which month----
    Mr. Capuano. Yes, I understand the number of areas. I am 
looking to be--a legitimate answer--when I get asked at home, 
``How many jobs did we create with the stimulus?'' you are 
going to tell me 65,000 is a fair number?
    Mr. Kienitz. That was the number in the fall, correct. In 
the summer, the number tends to be higher. In the winter, it 
tends to be lower.
    Mr. Capuano. So if I say 75,000 jobs, that is a reasonable 
number----
    Mr. Kienitz. Sure.
    Mr. Capuano [continuing]. That would be hard to debate?
    Mr. Kienitz. I think so. I don't know. These guys might----
    Mr. Capuano. Does everybody agree with that general number?
    Mr. Herr. We also have some data in our testimony, too, 
that shows the quarterly variation. It is in that ballpark, 
50,000 to 75,000----
    Mr. Capuano. In that ballpark. And that is just DOT. Does 
that include EPA and others, or just DOT?
    Mr. Elkins. We have not done work in that area, so I really 
couldn't----
    Mr. Capuano. So it is an absolutely minimum of 75,000 jobs, 
and that is only on 7 percent of the stimulus.
    Mr. Kienitz. Right, and that is only the direct actual 
people employed, rather than the follow-on----
    Mr. Capuano. I understand.
    Mr. Kienitz. Yes.
    Mr. Capuano. So--but again, I am trying to come up with 
something that we can absolutely agree on. Not looking for 
debate.
    So--and everybody here--as I heard the testimony, everybody 
here pretty much said that there is very little or virtually no 
waste, fraud, and abuse in the monies out there. Did I hear 
this correctly?
    [No response.]
    Mr. Capuano. There is very little waste, fraud, and abuse 
in the whole program, is that a fair----
    Mr. Scovel. So far. Sir, I would not characterize it as 
very little. I would say surprisingly--I surprising low level.
    Mr. Capuano. Surprising?
    Mr. Scovel. Yes.
    Mr. Capuano. Surprising is not necessarily, my term, and 
objective term.
    Mr. Scovel. It is not.
    Mr. Capuano. It is either a lot or not a lot.
    Mr. Scovel. Right.
    Mr. Capuano. And it is not a lot.
    Mr. Scovel. It is not a lot.
    Mr. Capuano. You may be surprised by that, but somehow I am 
not.
    Mr. Scovel. I am.
    Mr. Capuano. So that we have a program that is only 7 
percent of the total expenditures that created a minimum of 
75,000 jobs with very little waste, fraud, and abuse. Does 
anybody here not call a program with that record an incredible 
success? Maybe even a surprising success? I would call that a 
massive success, one that I am proud to have been associated 
with, one that I am proud to have voted for, one that I am 
proud to have voted for. So, with all the grief that we took 
for a year-and-a-half on the stimulus, turned out pretty good. 
With some bumps, but pretty good.
    I just want to make sure I heard all this testimony the 
same, because we talk a lot in terms that the average 
American--and that includes me--have a hard time following. I 
do not think I have a hard time following that. We created a 
lot of jobs. We ended up with infrastructure improvements that 
will help the economy in a long-term situation. We made life in 
this country better, and we did it with very little waste, 
fraud, and abuse.
    Thank you, gentlemen. I am very proud to have voted for 
this bill. I yield back.
    Mr. Mica. I thank the gentleman. Other Members seek 
recognition? Mr. Southerland?
    Mr. Southerland. Thank you, Mr. Chairman. As far as the--I 
am curious on the jobs issue. How many--and I just--I am asking 
for clarification. I know you just were asked the number of 
jobs in the Department. I think you said 65,000.
    Mr. Kienitz. That was in the fall.
    Mr. Southerland. In the fall. Were those added jobs to DOT 
to oversee the stimulus projects, or were those existing jobs 
that were already there that were given oversight over the 
stimulus funds?
    Mr. Kienitz. No, these are actually people working at 
construction sites on transportation projects, building them.
    Mr. Southerland. OK. So those were both private and 
Federal----
    Mr. Kienitz. Almost--99 percent private sector. This is all 
bid out to the private sector.
    Mr. Southerland. OK. As far as the--how many--so, 
obviously, we do not know those jobs, since they are private 
sector--we have no idea whether those jobs are obviously going 
to exist after the stimulus dollars----
    Mr. Kienitz. Mm-hmm, mm-hmm.
    Mr. Southerland. OK. I am just curious. How do you--what 
have we learned here--and I wasn't here, I know I just arrived 
about 20, 30 minutes ago--what is the greatest--where did the 
American people get the biggest bang for their buck?
    And I know that is a very difficult question, because you 
addressed how each State made their own decisions on--and I 
like that very much, I think you are the best ones positioned 
to do that.
    Just real quick, though, I mean when you look back over 
your career, you know, when you are retired and you say, ``Hey, 
let's talk about the stimulus dollars,'' what did we do great?
    Mr. Kienitz. I will answer it and then the gentleman can 
answer. I think for transportation, the most obvious lasting 
legacy of the stimulus will be improved road and pavement 
condition.
    Mr. Southerland. OK.
    Mr. Kienitz. And that is something that we track according 
to an international standard about tracking pavement 
conditions. You are supposed to replace pavement surface every 
7 years and underlayment every 15 years, according to a 
schedule that is well known by engineers.
    And, for much of the last 40 or 50 years we just do not do 
that on the schedule that we should, and that is why roads are 
in bad shape. And we just got a huge amount of backlog out of 
the system. And that is all stuff that in 7 years from now and 
15 years from now is all going to have to be done again, 
because that is the way it works. But at least for this 
upcoming period, that stuff is going to be in way better shape.
    And on the transit side, 12,000 new buses to replace 15- 
and 20-year-old buses that break down all the time and have to 
be fixed, that is going to be a big legacy.
    Mr. Herr. I think it is a very fair question, and it is 
something that we have recommended the DOT take steps to do, to 
provide an assessment that looks across the $48 billion. I 
think that timeframe is going to come up in about a year or so. 
As Mr. Kienitz mentioned, certainly with regard to pavement, 
buses, things of that nature. We have laid out what some of 
those are at this point.
    At some point you can also look at bridge rehabilitation as 
well, and there are databases that would allow someone to look 
back and determine whether a structurally deficient bridge was 
improved or if a bridge that needed to be repaired that was in 
a queue has been repaired. So there is an opportunity to do 
that, and we certainly encourage the Department to take that 
step, too.
    Mr. Southerland. I know, because time is precious, let me 
ask my follow-up question for those who did not get a chance at 
that one.
    When you are retired and you are back and you are looking 
back over the stimulus dollars and the last 2 years, where will 
you be honest and say, ``Man, the American people got the shaft 
on this one''?
    [No response.]
    Mr. Southerland. I mean--and that is not a leading 
question, I am just being fair. I have asked you where our 
successes were, and I think it is fair--I am a small business 
owner, OK? To say that, hey, you know, the--I mean what did we 
learn?
    Mr. Trimble. I mean, from our perspective, the work we did 
early on, in terms of providing oversight on the process, I 
think it did a lot to prevent any sort of disaster stories from 
happening. We and the IGs have been out there making sort of 
day-to-day or bimonthly reports on this issue to try to improve 
the oversight. So I do not think we have seen those kind of 
sort of big derailments of the process.
    Mr. Herr. As you think about things like this in the 
future, there is a tension between doing things quickly, 
getting half the money obligated in 120 days and the other half 
within a year----
    Mr. Southerland. Right.
    Mr. Herr. And then coming back later and asking, ``How many 
big ticket projects got underway?'' There are trade-offs in 
that respect.
    Mr. Scovel. Sir, if I may cite one point.
    Mr. Southerland. Sure.
    Mr. Scovel. And this is a question mark that we have, and 
it remains over the next number of years to be resolved. But it 
has to do with high-speed rail.
    Our statement points out that FRA has not yet issued 
detailed guidance for forecasting processes that would help 
determine sustainability and sustained award decisions. Neither 
has FRA yet issued guidance on core management responsibilities 
to provide the oversight that only the agency can do.
    At the end of the process, if that is not a success, then 
high-speed rail may well be marked a deficiency in the eyes of 
the American public----
    Mr. Southerland. Well, and I think this. You know, I tell 
people that everything I learned to be a Member of Congress I 
learned in our home by the age of 10. It is really not 
complicated, OK? My father would make sure that we, as 
children--that he gave us a little bit before he gave us a 
whole lot. He wanted us to mess up with just a little bit 
before we messed up with a whole lot. That is good parenting. 
Now that we perpetuate our family's 60-year business, it is 
good that that principle is followed.
    The only thing that I can look--when we talk about high-
speed rail, what is the definition of a little bit before we 
bite off a lot? I would say Amtrak. How have we managed? For 
every dollar of revenue that we sell and that we generate, we 
generate $2 in expenses. My father would have a little meeting 
of the minds if, at the age of 10, I wasted $2 for every dollar 
he gave me. And he would stop and say, ``You know what, son? 
This was $5 here. I am not about to give you $50.'' Let's 
understand the process.
    You know, we talked to America that this is complicated up 
here. I have to tell you it is not. I go back to the lessons of 
my youth. And thankfully, at the end of the week, I get to 
thank my parents for the lessons that they gave me as a child 
in their home. I hope that you--because you are decisionmakers, 
and your decisions affect hundreds upon hundreds of thousands--
millions of people, we must prove able with a little bit before 
we force the American people to give us a lot.
    I would say, over the stimulus, how many times did we feed 
a man a fish, where what we really should have done is taught 
that man how to fish, because we have then taken care of him 
for the rest of his life?
    I know this was a difficult challenge. But unless we say, 
``Where did we screw up, what do we know, what have we learned, 
and what are our options going forward,'' I would say you have 
got to spend your time focusing on where did the American 
people not get their biggest bang for their buck. If we claimed 
we were going to freeze unemployment at 8 percent and we jumped 
to 20--I mean jumped to 10, excuse me--we got to 10, what 
should we have done to prevent that?
    I am not accusing anyone. I am saying that you gentlemen 
are in the position--the American people demand and deserve us 
answering those questions. So thank you for testifying today. 
Mr. Chair, I yield back.
    Mr. Mica. Thank the gentleman.
    Mr. Southerland. I probably exceeded my 5 minutes; I 
apologize.
    Mr. Mica. I thank the gentleman for his questions. And any 
others seek recognition?
    [No response.]
    Mr. Mica. If not, let me just conclude this hearing by 
saying that I have tried to follow up again, I think, in a 
responsible oversight manner. Mr. Oberstar, the former chair, 
and myself had committed to do this. For the most part, the 
funds that were spent, we have had a partial success story.
    My concern has been that we did not put even more money 
into infrastructure, get it out faster and put more people to 
work, rather than paying unemployment benefits for social 
programs, for artificial subsidization of a whole host of 
things that turned out to be--and the best possible description 
would be a total failure. We did put some people to work, and 
not enough people. There are not permanent jobs for anyone, but 
we can do longer term jobs, and we can also wisely invest the 
limited tax dollars that we have available.
    Unfortunately, the stimulus dollars too--every dollar we 
spent, 42 cents was borrowed money, and at a very expensive 
premium for the future.
    So, I am disappointed overall in the stimulus, again, $787 
billion. We have tried to be good stewards over the limited 
amount--some $48 billion in the Department of Transportation, 
and some $63 billion total. I would like to continue our 
discussion of the expenditure of the money, particularly in the 
rail area.
    We do need a successful program in this country of high-
speed rail. I associate myself with the remarks of the 
gentleman from Massachusetts, Mr. Capuano, that we should 
focus--we have a corridor that we own that is a national asset, 
an asset to Amtrak, and would be the perfect model for us, and 
have the highest value of return for the entire Nation.
    What's a guy from Florida saying, ``Put the money in the 
Northeast Corridor'' for? Because 75 percent of the chronically 
delayed flights in the Nation start from the Northeast 
Corridor, because we have the fixed transit systems to 
interconnect like they did in Europe, which I don't have in 
Florida. Orlando still doesn't have any fixed transit, Tampa 
does not. And trying to make that work is not going to happen.
    And now we face the same thing with the California project 
between Bakersfield and Fresno, neither, again, that have the 
population or the transit systems to connect into. And I know 
you start with a small segment, but what we need is a 
successful segment.
    And we have a corridor in which that can happen. So I look 
forward to working with the members of this panel, with the 
administration, Secretary LaHood, with the Vice President and 
the President to try to have a success, not a failure, in that 
regard.
    I appreciate, again, the work of the inspectors general, 
the General Accountability Office, and the under secretary for 
policy of the Department of Transportation. We will have 
additional questions which we will submit and be made part of 
the record, and we will leave the record open for a period of 2 
weeks to request that information, also receive answers.
    There being no further business today before the House 
Transportation and Infrastructure Committee, this meeting is 
adjourned.
    [Whereupon, at 12:12 p.m., the committee was adjourned.]

</pre></body></html>
